Office of Inspector General
Small Business Administration




        Semiannual Report to Congress
                        Fall 2012




     April 1, 2012 — September 30, 2012
                                        U.S. Small Business Administration
                                            Office of Inspector General
                                              Washington, DC 20416



    I am pleased to present the U.S. Small Business Administration (SBA) Office of Inspector General’s (OIG)
    Fall 2012 Semiannual Report to Congress, which provides a summary of the OIG’s activities from
    April 1—September 30, 2012. As our statistics indicate, the OIG’s efforts to eliminate fraud, waste, and
    abuse in SBA programs during this period continue to significantly benefit taxpayers.

    During this reporting period, the OIG issued 10 reports containing 31 recommendations for improving SBA
    operations and reducing fraud and unnecessary losses in the Agency’s programs. In addition, OIG investigations
    resulted in 33 indictments, 27 convictions, and 26 recommendations for suspension or debarment. Overall, the
    OIG achieved monetary recoveries and savings of $56,304,123 from recommendations that funds be put to better
    use agreed to by management; disallowed costs agreed to by management; court-ordered and other investigative
    recoveries, fines, and forfeitures; and loans or contracts not made as a result of investigations and name checks.

    In achieving these results, the OIG dedicated its auditing and investigative resources toward the principal
    program areas of the SBA. A few noteworthy investigations and reviews detailed in this report are highlighted
    below.

        Two Florida men were each sentenced for their role in a $100 million fraud. They were also ordered to
        forfeit over $10.9 million. Their scheme involved creating a company to obtain a $100 million small
.       business set-aside language instruction contract with the Department of Defense, while creating the false
        appearance that the business was not affiliated with the winner of the previous contract.

        The former pastor of a Louisiana church was sentenced to 10 years in prison and ordered to pay $963,900 in
        restitution to the SBA in connection with his guilty plea to mail fraud and theft of government funds. He had
        received SBA disaster loan funds to rebuild his church, which had been severely damaged by Hurricane
        Katrina. Instead, he used the money to purchase two luxury vehicles, two pieces of real estate, certificates of
        deposit, designer clothing, fine jewelry, and other personal items.

        An audit of the SBA’s assessment of delegated lender underwriting found that the purchase review process
        was not effective in identifying whether lenders were negligent in determining the borrowers’ repayment
        ability. The OIG's analysis indicated that improved reviews for repayment ability could result in a cost
        savings to the SBA of at least $43 million over the next two years.

        Another audit determined that SBA’s National Disaster Loan Resolution Center did not transfer debts delin-
        quent over 180 days to Treasury for cross servicing and offset as required. The audit found that $171.1 mil-
        lion of loans in liquidation status as of December 31, 2011, were delinquent over 180 days and should have
        been transferred to Treasury but were not. As a result, collection actions against the delinquent borrowers
        were not initiated.

    I would like to thank the OIG’s employees for their outstanding efforts to promote economy, efficiency,
    effectiveness, and integrity in SBA programs and operations. We look forward to continuing to work with
    Administrator Mills and SBA’s management to address the issues and challenges facing the Agency.




    /s/
    Peggy E. Gustafson
    Inspector General
This page intentionally blank.
Table of Contents

Overview of the SBA and the OIG ........................................................................................1

Small Business Access to Capital..........................................................................................2

Disaster Loan Program .........................................................................................................6

Procurement Assistance ......................................................................................................8

Agency Management .........................................................................................................12

Other Significant OIG Activities .........................................................................................14

Statistical Highlights: April 1-September 30, 2012 ...........................................................18

Statistical Highlights: FY 2012 ...........................................................................................20

Appendix I: OIG Reports Issued April 1-September 30, 2012 ...........................................22

Appendix II: OIG Reports with Questioned Costs .............................................................24

Appendix III: OIG Reports with Recommendations that Funds Be Put to Better Use ......25

Appendix IV: OIG Reports with Non-Monetary Recommendations .................................26

Appendix V: Reports from Prior Periods with Overdue Management Decisions .............27

Appendix VI: Reports Without Final Action as of September 30, 2012............................28

Appendix VII: Summary of Significant Recommendations from Prior Reporting
Periods Without Final Action of as September 30, 2012..................................................31

Appendix VIII: Summary of Significant Recommendations April 1-Sept. 30, 2012 .........44

Appendix IX: Consponsored and Other Activities April 1-Sept. 30, 2012 .........................45

Appendix X: Legal Actions Summary ................................................................................51

Appendix XI: Results of External Peer Reviews ................................................................60

Appendix XII: Office of Inspector General Organization...................................................61

Appendix XIII: Office of Inspector General Organization Chart ........................................62
This page intentionally blank.
Overview

The Small Business Administration                            The Office of Inspector General
The mission of the Small Business Administration             Pursuant to the Inspector General Act of 1978 (the IG
(SBA or the Agency) under the Small Business Act, as         Act), as amended, the Office of Inspector General
amended, is to maintain and strengthen the Nation’s          (OIG) provides independent, objective oversight to
economy by enabling the establishment and vitality           improve the integrity, accountability, and perfor-
of small businesses and assisting in the economic            mance of the SBA and its programs for the benefit of
recovery of communities after disasters. The Agen-           the American people. While SBA’s programs are
cy’s 2011‑2016 strategic plan has three overarching          essential to strengthening America’s economy, the
goals:                                                       Agency faces a number of challenges in carrying out
                                                             its mission, including fraudulent schemes affecting all
          Growing businesses and creating jobs               SBA programs, significant losses from defaulted
          Building an SBA that meets needs of to-            loans, procurement flaws that allow large firms to
          day’s and tomorrow’s small businesses              obtain small business awards, excessive improper
          Serving as the voice for small business            payments, and outdated legacy information sys-
                                                             tems. The OIG plays a critical role in addressing
The SBA has also identified its Priority Goals for FYs       these and other challenges by conducting audits to
2012-2013, which are: (1) processing business loans          identify wasteful expenditures and program misman-
as efficiently as possible, (2) increasing small business    agement, investigating fraud and other wrongdoing,
participation in government contracting, (3) pro-            and taking other actions to deter and detect waste,
cessing disaster assistance applications efficiently,        fraud, abuse, and inefficiencies in SBA programs and
and (4) expanding access to long-term capital by             operations.
committing at least $4.3 billion of capital via the          The OIG’s activities also help to ensure that SBA em-
Small Business Investment Company program.                   ployees, loan applicants, and program participants
                                                             possess a high level of integrity. This is critical to the
The SBA is organized around four key functional are-         proper administration of the SBA’s programs be-
as including financial assistance, contracting assis-        cause it helps ensure that SBA resources are utilized
tance, technical assistance (e.g., entrepreneurial de-       by those who deserve and need them the most. Ap-
velopment), and disaster assistance. The Agency also         pendix I contains information regarding audit and
represents small businesses through an independent           other reports issued by the OIG during this reporting
advocate and an ombudsman.                                   period. Appendix X contains summaries of investiga-
                                                             tive actions. Copies of OIG reports and other work
The SBA’s headquarters is located in Washington,             products are available on the OIG’s website at http://
D.C. with staff in 10 regional offices, 68 district offic-   www.sba.gov/office-of-inspector-general.
es, their corresponding branch offices, and 4 disaster
field offices to deliver business products and services.
There are also six government contracting area offic-                                  ***
es. The SBA also maintains a vast network of re-
source partners in all 50 states, the District of Colum-
bia, Puerto Rico, American Samoa, the U.S. Virgin
Islands, and Guam.

                          ***
Small Business Access to Capital

                                                               $196,000 in what was identified as seller’s pro-
   Equity (or capital) injection is a borrower’s own           ceeds. This money was then covertly funneled to a
     financial stake in a business. If an individual           company owned by the buyer in the transaction. This
 personally has something at risk in the business, he          is a joint investigation with the FBI.
    or she is less likely to default on a loan. When
required by lenders to inject such money into projects                                  ***
financed by guaranteed loans, some borrowers try to            North Dakota Man Indicted for Bank Fraud
  avoid this requirement by falsifying the amount or
  source of these injections, as demonstrated by the           A former North Dakota bank loan officer was indicted
                   following examples.                         for bank fraud, false entry in bank records, making
                                                               false statements to a financial institution as well as
                                                               other false statements, and a forfeiture charge. The
                                                               charges relate to him providing misleading infor-
                       ***
                                                               mation to secure a $2 million SBA-guaranteed loan
Louisiana Man Pleads Guilty
                                                               for a husband and wife’s business. The husband had
A Louisiana man pled guilty to wire fraud, making              previously been indicted for misrepresenting his cash
false statements to a financial institution, and making        injection for the loan. Based upon the bank’s defi-
a false tax return. He and another individual applied          cient oversight, the SBA Office of General Counsel
for a $916,000 SBA-guaranteed loan to finance the              decided to deny liability on the full guaranty, result-
purchase of a business. The investigation revealed             ing in a cost avoidance to the SBA of $1,342,000. This
that he devised a fraudulent commission agreement              is a joint investigation with the U.S. Secret Service
used at loan closing, which circumvented the equity            (USSS), Federal Deposit Insurance Corporation OIG,
injection requirement. This is a joint investigation           FBI, Immigration and Customs Enforcement’s Office
with the Federal Bureau of Investigation (FBI), the            of Investigations, and the Tampa Police Department.
Louisiana State Attorney General’s Office, and the
Internal Revenue Service (IRS) Criminal Investigation                                   ***
(CI).
                          ***                                  Alabama Woman Pleads Guilty to Loan Fraud
Texas Man Ordered to Pay Over $1.2 Million
                                                               An Alabama woman pled guilty to loan fraud. She
                                                               obtained an SBA-guaranteed loan of $1,529,000 to
A Texas man was sentenced to 5 years probation, 6
                                                               purchase a business for which the seller provided the
months home confinement, and over $1,207,000 in
                                                               $260,000 required equity injection. Both the woman
restitution after pleading guilty to making false state-
                                                               and the seller falsely represented that the equity in-
ments. He had contracted to buy a motel for
                                                               jection was a gift to the buyer from her grandmoth-
$2,350,000 but conspired with others to create an-
                                                               er. The SBA OIG Early Fraud Detection Working
other company to serve as a straw seller in order to
                                                               Group provided information toward the initiation and
artificially inflate the sales price to $2,950,000. The
                                                               development of this case.
man then submitted fraudulent documents to the
SBA lender to support this scheme. He paid the straw
                                                                                        ***
seller $400,000 of the required cash injection outside
of closing, but $308,000 was secretly returned to him
                                                               Florida Man Agrees to Pay the SBA $410,000
prior to closing. This allowed him to apply some of
the same funds again toward the remaining balance              The U.S. Department of Justice, acting on behalf of
of the cash injection, thereby reducing the out-of-            the SBA in a civil action, reached a settlement agree-
pocket funds he had to pay to purchase the proper-             ment in which a Florida man agreed to pay the SBA
ty. At the closing, the straw seller received nearly           $410,000. The man had sold another individual a
                                                           2
$410,000. The man had sold another individual a               California Group Indicted for Fraud
combined gas station and convenience store for                A California husband and wife were each indicted for
$1.33 million. The transaction required a $600,000            mail fraud, bank fraud, making false statements, and
equity injection that the purchaser never pos-                aiding and abetting. Their daughter was indicted on
sessed. The defendant made it appear that the pur-            varying counts of the same charges, while another
chaser had the full equity injection by providing an          individual was indicted for mail fraud and aiding and
additional $180,000 loan to him. This loan was chan-          abetting. The four individuals allegedly executed a
neled through a third party with a false “gift letter”        scheme to defraud a financing corporation, a bank,
to make the loan appear to be a gift from a friend.           and the SBA by making false statements to obtain
                                                              business loans for a combined gas station and car
                                                              wash that the couple owned. Allegedly, the daughter
 Criminals fraudulently obtain—or induce others to            and the other individual falsely reported that neither
obtain—SBA-guaranteed loans through a variety of              they nor their businesses were involved in any bank-
      techniques, such as submitting fraudulent               ruptcies or pending lawsuits, and that they did not
     documents, making fictitious asset claims,               have a controlling interest in other businesses. At
 manipulating property values, using loan proceeds            the time they signed the SBA business loan applica-
  contrary to the terms of the loans, and failing to          tion, however, both had been involved in bankruptcy
disclose debts or prior criminal records. The result is       proceedings. In addition, the daughter was involved
a greater chance of financial loss to the Agency and          in a pending lawsuit and had a controlling interest in
                      its lenders.                            another business. The indictment also alleges that all
                                                              four individuals made material false statements to
                                                              obtain another business loan for the business. The
                                                              loss to the financial institution and the SBA is approx-
                         ***                                  imately $1.45 million.
                                                                                       ***
Virginia Business Owner Indicted with $17.7 Million
Judgment and Forfeiture                                       Three Plead Guilty in Scheme Costing $52 Million
                                                              Two Maryland men and one woman pled guilty to
A Virginia business owner was indicted for conspir-           conspiracy to commit bank fraud in connection with
acy, conspiracy to commit bank fraud, money laun-             a scheme to fraudulently obtain SBA-guaranteed
dering, bank fraud, making false statements to in-            business loans. In addition, the men agreed to crimi-
fluence a financial institution and/or the SBA, and           nal forfeitures of $13,432,000 and $18,764,900 re-
structuring currency transactions. The indictment             spectively, while the woman agreed to a criminal
also notified him that the United States intends to           forfeiture of $15,725,000. A fourth individual was
seek a $17.7 million money judgment and forfei-               sentenced to 33 months in prison, two years of su-
ture of assets, including bank accounts and real              pervised release, restitution of $713,000, and forfei-
property, as proceeds of the alleged fraud. A su-             ture of $1.3 million. The scheme involved using a
perseding indictment added business assets, vehi-             straw borrower to fraudulently obtain the loans. The
cles, and investment accounts to the forfeiture               individuals made material misrepresentations on
notice. The man allegedly participated in a multi-            financial statements, tax documents, and bank state-
million dollar scheme involving bogus Treasury                ments by falsely enhancing the creditworthiness of
checks and tax returns. He also allegedly misrepre-           the true borrowers. The resulting losses are estimat-
sented his citizenship status when obtaining a                ed to be over $52 million. The OIG is conducting this
$149,000 SBA loan and a $203,000 bank loan. This              investigation jointly with the FBI and the U.S. Postal
is a joint investigation with the FBI.                        Inspection Service.
                        ***
                                                          3
Utah Business Owner Sentenced
                                                               During this reporting period, the OIG completed
A Utah business owner (and former mortgage loan                 three audits in the area of Business Loans and
officer) was sentenced to 10 days incarceration, 6            Oversight. All three highlighted opportunities for
months of home confinement, 30 months of super-                the SBA to more effectively assess and mitigate
vised release, and nearly $166,000 in restitution to          financial risk to the Agency. Specifically, the OIG
be paid jointly with another man who, in turn, was             recommended steps to develop and implement
sentenced to over 1 year incarceration and 36              improved processes by which to recognize and assess
months of supervised release. The first man had             lender deficiencies and monitor and verify corrective
pled guilty to money laundering. The two men re-                     actions. By implementing all of the
cruited “straw borrowers” and used the borrowers’          recommendations in these reports, the Agency could
names and good credit to fraudulently obtain               reduce the amount of its unnecessary financial losses
$335,000 in loans. The straw borrowers were
promised compensation for allowing the use of
their personal information to fabricate application                                ***
documents in order to induce the banks to approve
                                                           Addressing Performance Problems of High-Risk
the loans. The men enticed the straw borrowers to
                                                           Lenders Remains a Challenge for the Small Busi-
submit documents indicating that they owned thriv-
                                                           ness Administration
ing businesses when, in fact, the businesses only
existed on paper. They fraudulently obtained four
                                                           During this reporting period, the OIG completed
SBA loans and two regular bank loans. This case
                                                           an audit of the actions taken by the SBA to miti-
was initiated based on a referral from the SBA Utah
                                                           gate risks presented by High-Risk lenders before
District Office. This was a joint investigation with
                                                           and during the American Recovery and Invest-
the IRS-CI.
                                                           ment Act of 2009. The OIG found that the SBA did
                        ***
                                                           not always recognize the significance of lender
Missouri Man Ordered to Pay $1.1 Million                   weaknesses and determine the risks they posed
                                                           to the Agency. Further, the SBA did not require
A Missouri man was sentenced to 5 years of proba-          lenders to correct performance problems that
tion and nearly $1,114,000 in restitution, including       could have exposed the Agency to unacceptable
nearly $579,000 to the SBA. He previously had pled         levels of financial risk. The OIG recommended
guilty to making false statements for the purpose of       that the SBA (1) tailor the scope of on-site re-
influencing the SBA and aiding and abetting. The           views of lenders to identify and address the weak-
investigation disclosed that he had signed several         nesses underlying their ratings, (2) ensure that
SBA documents in connection with a $750,000 SBA-           judgmental loan samples targeting lender-specific
guaranteed loan to a firm. Although he stated that         risks are drawn for each on-site review, (3) devel-
he was the 100% owner, he actually had no owner-           op and implement a process for assessing lender
ship interest in the company. The man also signed          weaknesses in terms of their risk to the Agency,
SBA documents affirming that portions of the loan          (4) train contractors and analysts on the process
proceeds were to be used for equipment and inven-          for assessing lender weaknesses and reporting
tory purchases, working capital, and debt repay-           findings, (5) develop and implement a corrective
ment when, in fact, he knew that the proceeds              action follow-up process to monitor and verify the
were intended for paying down another business’s           implementation and effectiveness of corrective
outstanding loan balance. This was a joint investi-        actions prior to close-out, and (6) develop and
gation with the FBI.                                       implement a control to ensure loans cannot be



                                                       4
purchased until guaranty issues are fully resolved           analysis indicated that improved reviews for re-
and documented.                                              payment ability could result in a cost savings to
                                                             the SBA of at least $43 million over the next two
                         ***
                                                             years. To prevent future losses, the OIG recom-
504 Recovery Act Loans were Originated and Closed            mended that the SBA perform a detailed analysis
in Accordance with SBA Policies                              of the delegated lenders’ computation of repay-
                                                             ment ability on all high-dollar early-defaulted
In an audit of the origination and closing of 504 Re-
                                                             loans and provide training to NGPC purchase staff.
covery Act loans, the OIG found that the SBA gener-
ally originated and closed 504 Recovery Act loans in
accordance with SBA policies and procedures. How-                                   ***
ever, the OIG identified origination and closing defi-
ciencies in four of the loans reviewed. These defi-
ciencies included approved loans that lacked credit-
worthiness, a loan approved with a collateral short-
shortfall, and one loan approved as an existing busi-
ness transaction instead of as a new business trans-
action. The loans reviewed had improper loan ap-
provals of $1,561,000. The OIG recommended that
the SBA (1) determine how the deficiencies in the
four SBA-approved loans occurred and take correc-
tive action to prevent similar deficiencies in other
SBA-approved 504 loans, (2) provide feedback to the
SBA loan officers who approved the 504 loans in
which deficiencies were identified, and (3) notify the
improper payment review team of the improper 504
loan guaranties to ensure the proper estimation of
improper payments in the 504 Loan Program.

                         ***

A Detailed Repayment Ability Analysis is Needed on
High-Dollar Early-Defaulted Loans to Prevent Fu-
ture Improper Payments


In an audit of early-defaulted loans, the OIG deter-
mined that the SBA’s assessment of delegated lend-
er underwriting performed at the National Guaranty
Purchase Center (NGPC) on early-defaulted loans
was not effective. Specifically, the assessment was
not effective in identifying whether lenders were
negligent in determining the borrowers’ repayment
ability. As a result, the NGPC made improper pay-
ments, which resulted in unnecessary losses to the
Agency. Based on previous audit work, the OIG's


                                                         5
Disaster Loan Program

                                                              ter business loan application for business proper-
                                                              ties located in Mississippi and Louisiana. They re-
  The Disaster Loan Program plays a vital role in the         ceived $1 million in loan proceeds to repair proper-
     aftermath of disasters by providing long-term,           ties damaged by Hurricane Katrina. The investiga-
low-interest loans to affected homeowners, renters,           tion found that they (1) misused the proceeds, (2)
           businesses of all sizes, and non-profit            submitted fraudulent receipts to the SBA, and (3)
     organizations. There are two primary types of            used nearly $390,000 of the loan proceeds to pur-
       disaster loans (1) physical disaster loans for         chase a 43-foot yacht. This case was developed
permanent rebuilding and replacement of uninsured             through a proactive National Center for Disaster
     disaster-damaged privately owned real and/or             Fraud initiative. The OIG conducted this investiga-
 personal property, and (2) economic injury disaster          tion jointly with the FBI.
 loans to provide necessary working capital to small
  businesses until normal operations resume after a                                 ***
disaster. The Disaster Loan Program is vulnerable to          Former Louisiana Pastor Sentenced to 10 Years
       fraud and unnecessary losses because loan
 transactions are expedited in order to provide quick         The former pastor of a Louisiana church was sen-
    relief to disaster victims. Additionally, loans are       tenced to 10 years in prison, 3 years supervised
       often under-collateralized which presents a            release, and ordered to pay $963,900 in restitu-
       challenge to the Agency when servicing and             tion. He had previously pled guilty to mail fraud
                 liquidating troubled loans.                  and theft of government funds. The man had ap-
      In response to the increase in fraud following          plied for an SBA disaster loan on behalf of the
   Hurricanes Katrina, Wilma, and Rita, the OIG and           church where he was the pastor at the time. The
    other law enforcement organizations established           initial loan amount of $500,000 was for replace-
 the National Center for Disaster Fraud (the Center).         ment of equipment and rebuilding of the church,
        From FY 2006 through FY 2012, the OIG, in             which sustained damage as a result of Hurricane
      conjunction with the Center, has produced 86            Katrina. He later requested a loan increase due to
arrests, 95 indictments, and 91 convictions related to        additional construction costs for rebuilding the
     wrongdoing in SBA’s Disaster Loan program for            church. A $463,900 loan increase was approved by
                   these three hurricanes.                    the SBA, bringing the total loan amount to
  Investigations for these disasters— to date— have           $963,900. However, he did not use the funds as
      resulted in over $6.6 million in court-ordered          specified in the loan authorization and agreement,
    restitution and related recoveries, as well as the        which required the funds be used to reconstruct
  denial of nearly $4.5 million in loans to potentially       real estate and rehabilitate or replace property
     fraudulent borrowers. In addition, the OIG has           damaged by the hurricane. Instead, he used the
   investigated fraud related to 2008 Hurricanes Ike          funds to purchase luxury vehicles, real estate, de-
                        and Gustav.                           signer clothing, fine jewelry, and other items for
                                                              his personal use. The OIG conducted this investi-
                                                              gation jointly with the USSS.

Mississippi Man Ordered to Pay $1.25 Million                                          ***

A Mississippi man was sentenced to 3 years of pro-            Retired Texas Judge Indicted for Fraud
bation and was ordered to pay a $250,000 fine and
$1 million in restitution. He had previously pled             A Texas man was indicted for fraud in connection
guilty to making false statements. The man and his            to a major disaster. The man, a retired judge, al-
wife, who has also been charged, submitted a disas-           legedly provided false statements to obtain a Hur-

                                                          6
ricane Ike SBA disaster loan. The alleged false state-         The audit determined that the NDLRC was not com-
ments involved the location of his primary residence,          plying with the DCIA requirement that all Federal
the address for his homestead exemption, and the               agencies transfer debts delinquent over 180 days to
payment of the required personal equity injec-                 Treasury for cross servicing and offset. The audit
tion. At the time of Hurricane Ike, the subject’s pri-         found that approximately 1,553 of 3,958 disaster
mary residence was located in a city in Texas. How-            loans (39 percent) in liquidation status as of Decem-
ever, in applications submitted to the SBA and the             ber 31, 2011, were delinquent over 180 days and
Federal Emergency Management Agency (FEMA), he                 not in active litigation status, foreclosure status,
claimed it was in a different Texas city and obtained          workout, or otherwise exempt from transfer to
a $125,000 SBA loan. He further obtained approxi-              Treasury for cross servicing. The principal balances
mately $10,000 in FEMA disaster assistance for                 for these loans totaled approximately $171.1 mil-
emergency housing needs. This is a joint investiga-            lion. Since the loans did not meet the Treasury crite-
tion with the Department of Homeland Security OIG.             ria exempting them from transfer, the NDLRC should
                                                               have charged off the loans so that the SBA could
                                                               transfer them to Treasury to initiate collection ac-
                                                               tion against the delinquent borrowers.
The OIG issued two Advisory Memoranda during this
period both related to findings in an audit initiated to       The OIG recommended that the SBA (1) evaluate
   assess the SBA National Disaster Loan Resolution            disaster loans in liquidation status over 180 days,
 Center’s (NDLRC) effectiveness in managing disaster           but not specifically exempt from referral to Treas-
  loans in liquidation to maximize debt recovery and
                                                               ury, to charge off loans for which foreclosure is not
 minimize losses. The first memorandum was issued              feasible, (2) immediately charge off all disaster loans
to inform the Agency that the NDLRC did not transfer           in liquidation status delinquent over 180 days and
       eligible debts totaling $171 million to the             not secured by collateral, or specifically exempt
    Department of the Treasury (Treasury) for cross            from referral to Treasury, (3) update agency operat-
     servicing and offset, as required. The second             ing procedures, and (4) provide training to staff.
 memorandum addressed the potential risk of loss of
collateral on four disaster loans totaling $5.6 million.                                ***
The OIG’s recommendations, when implemented, will              The SBA Risks Loss of Collateral on Four Disaster
     minimize the risk of the loss of collateral and           Loans Totaling $5.6 Million
maximize recovery of delinquent debt for the Agency.
                                                               The second advisory memorandum found deficien-
                                                               cies with SBA’s handling of certain collateral secur-
The SBA Did Not Maximize Recovery for $171.1.                  ing four disaster loans. During the audit, the OIG
Million in Delinquent Disaster Loans in Liquidation            reviewed a random statistical sample of 65 disaster
                                                               loans charged off by the Santa Ana NDLRC. The sam-
The first advisory memorandum addressed the SBA's              ple included two defaulted loans the SBA approved
noncompliance with the Debt Collection Improve-                for a Florida condominium complex. The SBA ap-
ment Act of 1996 (DCIA). The overall audit objective           proved four loans to this condominium complex;
was to assess the NDLRC’s effectiveness in managing            two loans are current, while two are in default. The
disaster loans in liquidation to maximize debt recov-          OIG discovered that the Uniform Commercial Code
ery and minimize losses. One specific audit objective          (UCC) financing statement had lapsed for one of
was to assess whether the NDLRC complied with the              these loans, and that the UCC financing statements
DCIA for disaster loans in liquidation status as of            for the remaining three loans would expire within
December 31, 2011.                                             months. The OIG recommended that the SBA renew
                                                               all four UCC financing statements to preserve the
                                                               Agency’s interest in $5.6 million in loan collateral.
                                                           7
Procurement Assistance
Small Business Development & Contracting Programs
                                                             Over $2 Billion in Government Contracts
                                                             Involved in Bribery Scandal

                                                             In a continuing multi-agency investigation, 12 indi-
                                                             viduals have thus far been charged in a scheme in-
                                                             volving more than $30 million in bribes and kickback
  The SBA works to maximize opportunities for small,         payments. The conspiracy involved the use of a $1.3
  woman or minority-owned, and other disadvantaged           billion Alaska Native Corporation (ANC) sole source
 businesses to obtain federal contract awards through        contract to pay for the bribes and the planned steer-
its government contracting programs. These programs          ing of a $780 million government contract to a fa-
 include, among others, the Historically Underutilized       vored Section 8(a) program participant. All of these
 Business Zone (HUBZone) Empowerment Contracting             individuals have pled guilty to bribery, conspiracy,
    Program and the Small Disadvantaged Business             money laundering, and other charges. This is a joint
             (SDB) Certification Program.                    investigation with the FBI, IRS-CI, U.S. Army Criminal
                                                             Investigation Command (still known as CID), and
The SBA also negotiates with other federal agencies to       Defense Criminal Investigative Service (DCIS). The
   establish procurement goals for contracting with          following legal actions illustrate the extent and com-
small, disadvantaged, women-owned, service-disabled          plexity of the conspiracy:
    veteran-owned, and HUBZone businesses. The
 current government-wide goal is for small businesses        Owner Agrees to Pay Almost $4.1 Million to U.S.
    to receive 23 percent of the total value of prime
          contracts awarded each fiscal year.
                                                             The owner of a construction management firm pled
To help small disadvantaged businesses gain access to        guilty to conspiracy to commit money laundering
 federal and private procurement markets, the SBA’s          and agreed to a nearly $4.1 million judgment in favor
 Section 8(a) Business Development Program offers a          of the United States. The investigation revealed a
broad range of business development support, such as         conspiracy to launder proceeds of the bribery
      mentoring, procurement assistance, business            scheme and to use the proceeds to obtain real prop-
    counseling, training, financial assistance, surety       erty, vehicles, and luxury personal goods for person-
     bonding, and other management and technical             al benefit. The owner and others caused his firm to
    assistance. The SBA also provides assistance to          submit fictitious purchase orders and invoices to a
  existing and prospective small businesses through a        prime contractor in order to obtain payments from
variety of counseling and training services offered by       the U.S. Army Corps of Engineers (USACE) for gov-
   partner organizations. Among these partners are           ernment contracts.
  Small Business Development Centers (SBDCs), the
  Service Corps of Retired Executives (SCORE), and
Women’s Business Centers (WBCs). Most of these are           Former Corps of Engineers Program Manager
   grant programs that require effective and efficient
                                                             Pleads Guilty to Bribery of a Public Official
      management, outreach, and service delivery.
                                                             In a related matter, a former USACE program manag-
                                                             er pled guilty to bribery of a public official and con-
                                                             spiracy to commit money laundering. He also agreed
                                                             to the forfeiture of nearly $11.1 million in favor of
                                                             the United States and specific property as set forth
                                                             in the plea agreement. In addition, his son pled



                                                         8
guilty to conspiracy to commit money laundering               tain money and property from financial institutions
and agreed to the forfeiture of specific personal and         by means of false and fraudulent pretenses, repre-
real property. The investigation found that the fa-           sentations, and promises. Finally, he willfully failed
ther received and accepted things of value, person-           to file an income tax return related to income
ally and for other persons, from various firms and            earned in calendar year 2010 in excess of
others in return for funding and approving con-               $100,000.
tracts. He provided preferential treatment to these                                  ***
contractors and subcontractors for contracts award-
ed—and to be awarded—through the USACE. The
payments received by and promised to him totaled
over $30 million. The son conspired with his father
and others to launder the proceeds of the
scheme. The investigation uncovered the father’s                  Some firms misrepresent their eligibility for the
individual role in the planned steering of a govern-             Service-Disabled Veteran-Owned Small Business
ment contract with an intended value of nearly $1              (SDVOSB) Concern, HUBZone, Section 8(a) Business
billion.                                                           Development, ANC, and other small business
                                                                programs to gain preferences in obtaining federal
                                                                      contracts. The OIG’s and other federal
Corps of Engineers Manager Sentenced                               organizations’ investigations have identified
                                                                schemes in which businesses owned or controlled
Another former USACE program manager was sen-                   by non-disadvantaged persons falsely claim to be
tenced to 6 years in prison, 3 years supervised re-             disadvantaged firms or use actual disadvantaged
lease, and 500 hours of community service, as well              firms as fronts. The following cases demonstrate
as being ordered to pay $1.25 million in restitution                        the nature of the problem.
and a $1.25 million forfeiture money judgment. He
had participated in the scheme in which corrupt
public officials steered government contracts in ex-
change for more than $30 million in bribe and kick-
back payments. He received and accepted things of
value, for his personal benefit and for the benefit of        Alabama Man Sentenced for HUBZone Misrepre-
others, from two Section 8(a) firms in return for             sentations
funding and approving contracts.
                                                              An Alabama man was sentenced to 12 months and
                                                              one day imprisonment, 12 months of supervised
Ex-Chief Financial Officer Pleads Guilty to Bribery           release, and restitution of $130,000 after previous-
                                                              ly pleading guilty to misrepresentation. He had
The chief financial officer of a subcontractor to a           falsely obtained HUBZone certification for his busi-
Section 8(a) firm pled guilty to bribery, conspiracy to       ness even though his firm’s principal office was not
commit bank fraud, and willful failure to file a tax          located within a HUBZone and 35 percent of its
return in connection with his bribery of government           employees did not reside within a HUBZone, as
officials. He gave, offered, and promised over                required by program regulations. As a result of the
$200,000 for a U.S. Army public official’s benefit in         false HUBZone status, his firm was awarded 28
return for the official’s assistance in directing sub-        federal contracts from 2006 to 2009, valued at
contracts to his firm and providing preferential              nearly $2.6 million, which it otherwise would not
treatment for potential U.S. Army contracts. In ad-           have been eligible to receive. This was a joint in-
dition, he engaged in a scheme to defraud and ob-             vestigation with the Army CID and DCIS.

                                                          9
Kansas Company Owner Agrees to Forfeiture Judg-               New York Construction Firm Owner Sentenced in
ment in Excess of $6.8 Million                                Connection with Nearly $16.7 Million in Contracts

The owner of a Kansas construction company pled               The president of a New York construction firm was
guilty to conspiracy, major program fraud, wire               sentenced to 41 months in prison, a $30,000 fine, and
fraud, money laundering, and making false state-              3 years of supervised release after having been found
ments. He also agreed to a forfeiture judgment                guilty of mail fraud, major fraud against the United
against him for over $6.8 million. The owner and his          States, making false statements, and tampering with
company fraudulently claimed SDVOSB status to                 a victim, witness, or an informant. The firm had false-
obtain 11 federal government contracts valued at              ly claimed status as an SDVOSB and was awarded one
over $6.8 million, which his company otherwise                veteran-owned set-aside contract for nearly $5.7 mil-
would not have been entitled to receive. He also              lion and three SDVOSB set-aside contracts totaling
admitted providing the Department of Veterans                 nearly $11 million. However, the president was nei-
Affairs (VA) contracting officer with a fraudulent            ther a veteran nor service-disabled. This was a joint
resume in which he claimed to have served three               investigation with the VA OIG and Army CID.
tours in Southeast Asia as a highly decorated U.S.
Army officer. Government records show that he                                          ***
never left Missouri during his service in the Army
and Missouri National Guard. This is a joint investi-         Florida Men Ordered to Forfeit over $10.9 Million
gation with the General Services Administration               Gained from Fraud
(GSA) OIG, Veteran’s Administration (VA) OIG, and
                                                              Two Florida men were each sentenced to 36 months
DCIS.
                                                              incarceration, 36 months supervised release, 500
                                                              hours of community service, and a special assessment
                         ***
                                                              fee related to their conviction for conspiracy and wire
                                                              fraud. The two were also ordered to forfeit over
Idaho Man Pleads Guilty to Fraud
                                                              $10.9 million of proceeds from the fraud. In their
The owner of an Idaho construction company pled               scheme, they created a company for the purpose of
guilty to wire fraud and consented to the forfeiture          obtaining a $100 million small business set-aside lan-
of $150,000. The charges were in connection with              guage instruction contract with the Department of
fraud in SBA’s SDVOSB and HUBZone programs, the               Defense (DoD). In addition, they used a nominee
VA SDVOSB Program; and the GSA Surplus Property               owner to create the appearance that the business
Program, through which 8(a) companies can obtain              was not affiliated with another business under their
surplus property. The man established shell corpo-            control. The pre-existing business had been the in-
rations to financially benefit from SBA set-aside pro-        cumbent contractor on the previous DoD language
grams and government surplus property programs                instruction contract. The men submitted false and
in which he was not otherwise entitled to partici-            misleading information concerning the relationship
pate. The OIG is conducting this investigation jointly        between the two companies after the affiliation was
with the IRS-CI, VA OIG, GSA OIG, U.S. Department             challenged during a size protest submitted to the SBA
of Agriculture OIG, Department of Interior OIG, Air           Office of Government Contracting. This was a joint
Force Office of Special Investigations, and DCIS.             investigation with the DCIS.
                                                                                       ***
                         ***




                                                         10
A Non-Manufacturer Rule Waiver Allowed an 8(a)              presents the results of the OIG’s limited scope audit
Recovery Act Contract to Bypass Established Small           of the SBA’s procurement process used to reconfig-
Business Requirements                                       ure space for the Office of International Trade.
                                                            While conducting the audit, the OIG found that SBA
On September 4, 2012, the OIG issued Advisory               personnel with purchase card authority had inap-
Memorandum 12-19R, A Non-Manufacturer Rule                  propriately purchased $34,044.77 in construction
Waiver Allowed an 8(a) Recovery Act Contract to             transactions. These transactions were over the
Bypass Established Small Business Requirements.             $2,000 threshold established by the Federal Acquisi-
This advisory memorandum was the first in a series          tion Regulations for construction purchases at the
of ongoing limited scope audits to review the extent        Washington, DC area offices.
to which 8(a) Business Development Program partic-
ipants are complying with prime contractor perfor-          The OIG recommended that the SBA (1) ensure all
mance requirements for set-aside contracts.                 purchase cardholders have, on file, current delega-
                                                            tion letters that reflect current limitations and ap-
For this audit, the OIG selected one 8(a) contract          proving official; (2) provide training to SBA purchase
and one HUBZone contract. The OIG found that one            cardholders and approving officials on the proper
contractor complied with the performance of work            use of a government purchase card, to include pur-
requirements, and the other was exempt because of           chase limitations and the definition of construction;
a waiver from the SBA. The exempt contractor, an            and (3) review the routine maintenance needs of
Alaska Native Corporation (ANC), who utilized a sub-        SBA buildings within the Washington, DC area.
contractor to provide imaged personal computers
and monitors for the Department of Labor, per-                                       ***
formed another 8(a) set-aside contract for $7.78            Approval of SBDC Surveys
million. However, the 8(a) set-aside contract was
performed as a pass through contract where large            In December 2004, Congress amended the Small
businesses received most of the procurement dol-            Business Act to restrict the disclosure of information
lars, and the ANC received $153,000.                        regarding individuals or small businesses that have
                                                            received assistance from a Small Business Develop-
The use of the non-manufacturer waiver enabled a            ment Center (SBDC), and further restrict the Agen-
firm to bypass small business subcontracting re-            cy’s use of such information. The provision also re-
quirements resulting in a pass through contract to          quires the Agency to issue regulations regarding
large businesses. Although authorized under stat-           disclosures of such information for use in conducting
ute, these types of procurements may not provide            financial audits or SBDC client surveys. In 2009, the
the development opportunities to small businesses           Agency represented to the OIG that it would issue
intended through participation in the 8(a) program.         regulations as required by the statute, and later pre-
These types of procurements also funnel taxpayer            pared proposed regulations. However, the Agency
funds to large businesses instead of developing             has not yet issued these regulations.
small businesses. As a result, a large business re-
ceived 8(a) set-aside funds through a pass through          In addition, the Small Business Act states that, until
without competing in the open market.                       the issuance of such regulations, any SBDC client
                                                            survey and the use of such information shall be ap-
                         ***                                proved by the Inspector General, who shall include
Audit of SBA’s Procurement Process used to Recon-           such approval in the OIG’s Semiannual Report to
figure Space for the Office of International Trade          Congress. According to a report from the Agency,
                                                            the SBA did not conduct any surveys of SBDC clients
This advisory memorandum, the first of two reports,         during the second half of FY 2012.

                                                       11
Agency Management

                                                               The SBA’s Ratification Process May Lead to Anti-
   Agency management includes activities of the                Deficiency Act Violations
Offices of the Chief Financial Officer (CFO), the Chief
  Information Officer (CIO), and Management and                This advisory memorandum presents an issue the
     Administration. These activities encompass                OIG identified during an on-going audit of the Small
financial reporting and performance management,                Business Administration’s (SBA) Unauthorized Com-
human resources, procurements and grants, space                mitments. The OIG determined that the SBA had
     and facilities, and maintenance of the SBA’s              ratified four unauthorized commitments associated
 information systems and related security controls.            with an expired postage meters contract without
                                                               determining whether unobligated funds were availa-
                                                               ble when the unauthorized commitment initially
Former SBA Administrative Officer Pleads Guilty to             occurred. Without such a determination, these rati-
Wire Fraud                                                     fications appear to be invalid under Federal Acquisi-
                                                               tion Regulations (FAR) and U.S. Government Ac-
A former SBA administrative officer in the southern            countability Office guidance. Additionally, the ratifi-
U.S. pled guilty to fraud by wire. She had made over           cations may put the SBA at risk for an Anti-
$30,000 worth of personal and unauthorized pur-                Deficiency Act violation. The OIG did not determine
chases using the government purchase card as-                  how widespread this deficiency is but wanted to
signed to her SBA district office. Moreover, she had           provide SBA management with an early notification
filed approximately 59 falsified travel vouchers, re-          of this issue so the Agency could expeditiously im-
sulting in her receiving nearly $22,000 from the SBA           plement corrective action, if needed. As a result of
that she should not have received, and made over               the OIG’s actions, the Agency updated its ratification
$3,000 of unauthorized purchases on her govern-                template to ensure that funds existed at the time
ment travel card. This case was initiated based on a           the unauthorized commitment was made for all rati-
referral from her district office.                             fications since May 2012 and all future ratifications.
                          ***                                  The SBA is also in the process of reviewing all ratifi-
                                                               cations made between February 2011 and May 2012
Maryland Woman Pleads Guilty to Conspiracy                     to ensure that they comply with all of the require-
A Maryland woman pled guilty to conspiracy to com-             ments outlined in the FAR.
mit wire fraud after she and a former SBA payroll
assistant were charged with that crime. The indict-            The audit team recommended that the SBA: (1) con-
ment alleges that the former SBA employee provid-              tinue to review the remaining ratification actions
ed three altered copies of her own SBA earnings                that have been taken using the previous template to
statement to the Maryland woman so that she could              determine if they contain similar deficiencies, and
finance an automobile. The altered statements re-              undertake appropriate corrective action to ensure
flected that the Maryland woman was an SBA em-                 that all ratifications approved by the SBA are valid
ployee, even though she had never worked at SBA                under the FAR; and (2) review and determine if any
and was not employed at the time. When the auto-               Anti-Deficiency Act violations occurred in the previ-
mobile dealership requested additional proof of                ously ratified unauthorized commitments.
employment, the former SBA employee faxed a
fourth altered statement from SBA headquarters to                                      ***
the dealership in Maryland.                                    Review of SBA’s State Trade and Export Promotion
                                                               Grant Program
                          ***
                                                               This report presents the results of the OIG’s audit,
                                                               Review of SBA’s State Trade and Export Promotion

                                                          12
(STEP) Grant Program. The OIG reviewed the five                 Co-sponsorships and Fee-Based Administration-
largest grants, awarded to California, Pennsylvania,            Sponsored Events
Washington, Michigan, and Illinois, in order to de-
termine whether grant recipients were measuring                 Section 4(h) of the Small Business Act, as amended,
program performance, as well as the results of those            requires the OIG to report to Congress on a semi-
measurements. In addition, the audit team reviewed              annual basis regarding the Agency’s use of its au-
the overall management and effectiveness of the                 thority in connection with co-sponsorships and fee-
STEP grant program.                                             based Administration-sponsored events. The SBA’s
                                                                Office of Strategic Alliances provided information to
The OIG found that grant recipients’ performance
                                                                the OIG related to co-sponsorships, including the
measures did not demonstrate whether STEP pro-
                                                                names, dates, and locations of the cosponsored
gram goals were achievable. Specifically, grant recip-
                                                                events and the names of the cosponsors. This infor-
ients’ metrics were not adequate to measure perfor-
                                                                mation was not verified by the OIG. As shown in
mance. In addition, SBA personnel did not meet with
                                                                Appendix IX, between April 1, 2012 and September
Congress to identify and clarify the FY 2011 STEP
                                                                30, 2012, the Administrator—through her approved
program measures for success. Further, the SBA
                                                                designees—fully executed 48 cosponsorship agree-
mismanaged the STEP grant program, which may
                                                                ments.
result in misspent funds and a failure to achieve in-
                                                                                          ***
tended results. For example, personnel from the
SBA Office of International Trade and the Office of
                                                                Weaknesses Identified in FY 2011 FISMA Review
Grant Management awarded a grant to an ineligible
applicant, provided untimely and inaccurate re-
                                                                In this advisory memorandum, the OIG presented
sponses to inquiries, and failed to enforce grant
                                                                risk areas requiring management follow-up as a re-
terms and conditions. The audit team recommended
                                                                sult of the OIG’s FY 2011 Federal Information System
a total of nine specific actions to improve the ac-
                                                                Management Act (FISMA) review. The OIG’s review
countability and performance of the STEP grant pro-
                                                                found that the Office of Chief Information Officer
gram.
                                                                (OCIO) needs to prioritize remediation of IT security
                          ***                                   vulnerabilities identified in prior audits. The OCIO
                                                                also needs to perform recertification reviews of its
SBA Gift Authority
                                                                general support system’s end users and monitor
Section 4(g)(2) of the Small Business Act, as amend-            remote access logs for unauthorized activity. Finally,
ed, provides that any gift, devise, or bequest of cash          the OIG found that the SBA has a number of tasks in
accepted by the Administrator under Section 4(g)                its IT security assistance contract that are not being
shall be held in a separate account and shall be sub-           performed. The OIG made three recommendations,
ject to semiannual audits by the Inspector General,             (1) to implement OIG recommendations in a more
who shall report his findings to Congress. According            timely manner, (2) recertify network users, and (3)
to the SBA’s Office of Strategic Alliances, the SBA             review remote access audit logs. The OIG also re-
accepted one cash gift in the amount of $16,786                 issued a prior year recommendation related to the
during this semiannual reporting period. The OIG                OCIO’s oversight of its IT Security Contractor. The
will audit this gift in accordance with Section 4(g)(2).        CIO agreed to the accuracy of the current and prior
                                                                year recommendations, provided updates on status-
                          ***                                   es, and adjusted closure dates. The CIO also stated
                                                                that configuration management is being performed
                                                                by the Office of Communications and Technology
                                                                Services, and his office is in the process of amending
                                                                their security assistance contract.

                                                           13
Other Significant OIG Activities

                     ***
Character Screening Reduces Potential Program                        As a complement to the OIG’s criminal and civil
Fraud                                                              fraud investigations, the OIG continually promotes
                                                                      the use of suspensions, debarments and other
Participants in SBA programs involving business                    administrative enforcement actions as a means to
loans, disaster assistance loans, Section 8(a) certifica-              protect taxpayer funds from those who have
tions, surety bond guarantees, SBICs, and CDCs must                 engaged in fraud or otherwise exhibited a lack of
meet Agency character standards. To help ensure                       business integrity. The OIG regularly identifies
that this occurs, the OIG’s Office of Security Opera-               individuals and organizations for debarment and
tions utilizes name checks and, where appropriate,                   other enforcement actions and submits detailed
fingerprint checks to determine criminal background                recommendations with supporting evidence to the
information. During this reporting period, the OIG                               responsible SBA officials.
processed 2,549 external name check requests for
these programs.                                                       During this reporting period, the OIG sent 26
                                                                      suspension and debarment referrals to SBA.
The OIG also refers applicants who appear ineligible              Most OIG administrative referrals involve the abuse
because of character issues to program officials for                   of SBA’s loan and preferential contracting
adjudication. The referrals are based on data from                      programs. Where appropriate, the OIG
the OIG’s on-line connection with the FBI. As a result            recommends that the SBA suspend the subject of an
of OIG referrals during this reporting period, SBA                   ongoing OIG investigation given program risk
business loan program managers declined 33 appli-                  presented by the continued participation of those
cations totaling over $26.7 million, and disaster loan                           individuals and entities.
program officials declined 9 applications totaling                During the reporting period, the OIG has focused on
over $649,000. In addition, the Section 8(a) program                increasing the number of fact-based suspension
declined 20 applications for admission and the Sure-               and debarment referrals for contractors that have
ty Bond Guaranty program declined 1 application for                  committed fraud or otherwise shown a lack of
admission.                                                                          business integrity.

During this reporting period, the OIG also initiated
187 background investigations and issued 27 security                                      ***
clearances for Agency employees and contrac-
tors. The OIG also adjudicated 79 background inves-              Former 8(a) Business Development Program Partici-
tigative reports and coordinated with SBA’s Office of            pant Debarred for Unlawfully Procuring Citizenship
Disaster Assistance to adjudicate 89 derogatory
background investigation reports. Finally, the OIG               The SBA debarred an individual and a former 8(a)
processed 948 internal name check requests for                   Business Development Program Participant for un-
Agency activities such as success stories, “Small Busi-          lawfully procuring citizenship and making false state-
ness Person of the Year” nominees, and disaster as-              ments to the Government. This company had ob-
sistance new hires.                                              tained more than $3 million in contracts intended for
                          ***                                    legitimate 8(a) companies before the Government
                                                                 learned of the false statements. In a previous report-
                                                                 ing period, the SBA suspended the individual and the
                                                                 company based upon an OIG referral made while the
                                                                 investigation was ongoing.


                                                            14
Suspensions, Debarments, and Other Actions
HUBZone Applicant Suspended by the SBA                        Training Institute Suspension and Debarment
                                                              Course
The SBA suspended a company that included falsi-
fied residency information in its application for HUB-        Additionally, during the reporting period, the OIG
Zone approval. The submission of falsified residency          worked with the Council of the Inspectors General
information frustrates SBA’s goal of ensuring the             on Integrity and Efficiency (CIGIE) Training Institute
benefits of the HUBZone Program flow to designat-             to develop a suspension and debarment course. The
ed HUBZones.                                                  course is designed to familiarize auditors, inspec-
                         ***                                  tors, evaluators, and attorneys throughout Federal
                                                              OIGs with suspension and debarment issues and
Former HUBZone Participant Debarred                           provide practical exercises that give OIG employees
                                                              hands-on experience with suspension and debar-
The SBA debarred an individual and a former HUB-              ment. The CIGIE Training Institute intends to hold
Zone Program Participant for providing false infor-           the first offering of the class in November 2012, and
mation regarding the percentage of the program                the second in January 2013.
participant’s employees who lived in a HUBZone. In
a previous reporting period, SBA suspended the indi-                                   ***
vidual and the company based upon an OIG referral
made while the investigation was ongoing.                     Other Administrative Enforcement Actions

                         ***                                  In response to a management challenge issued by
                                                              the OIG, the Agency updated its procedures during
Individual and 8(a) Participant Suspended                     the reporting period for program revocation actions
                                                              under 13 CFR Part 103. This regulation is principally
The SBA suspended an individual and an 8(a) Busi-             designed to exclude loan agents and others, who
ness Development Program Participant for making               commit fraud or other wrongdoing, from participat-
false statements to the SBA and allowing the partici-         ing in SBA small business financial assistance pro-
pant to act as a front company for entities that were         grams.
not approved to participate in the 8(a) Business De-
velopment Program. Front companies deny legiti-               Other OIG investigations during the past decade
mate 8(a) participants contract and development               have identified loan agent fraud on several hundred
opportunities.                                                million dollars of SBA-backed loans. Additionally,
                         ***                                  the SBA has added a section to its website that iden-
                                                              tifies agency-specific and government-wide adminis-
Program Revocation Proposed by the OIG                        trative enforcement actions. The site now identifies
                                                              individuals and entities that have been subject of a
The OIG proposed an individual for program revoca-            program revocation action under Part 103 and gov-
tion under 13 CFR Part 103. The subject had fraudu-           ernment-wide suspension and debarment actions
lently obtained fees from several parties based upon          the SBA has imposed.
misrepresentations that he could provide SBA guar-
anteed loans. This matter was still pending at the                                     ***
end of the reporting period.

                         ***




                                                         15
Regulation Policy Reviews, Fraud Briefings, and Hotline Data
Reviews of Proposed Agency Regulations                        Fraud Awareness Briefings

As part of the OIG’s proactive efforts to promote             During this reporting period, the OIG conducted 12
accountability and integrity and reduce inefficiencies        fraud awareness presentations for over 730 at-
in SBA programs and operations, the OIG reviews               attendees, including SBA and other government em-
changes that SBA proposes to its program directives           ployees, lending officials, bank security officers, and
such as regulations, internal operating procedures,           other law enforcement representatives. Topics in-
and agency policy notices. Frequently, the OIG iden-          cluded SBA’s business loan and government contract-
tifies material weaknesses in the proposed revisions          ing programs, fraud indicators and trends, and how
and works with the Agency to implement recom-                 to report suspicious activity that may be fraudulent.
mended revisions to promote more effective con-
trols and deter waste, fraud, or abuse. During this                                    ***
reporting period, the OIG reviewed 49 proposed revi-
sions of program management or agency reorganiza-
tion documents and submitted comments on 31 pro-
posals.                                                       The Hotline is staffed by OIG employees who process
                                                                  allegations of waste, fraud, abuse, or serious
For example, the OIG coordinated with the Council of            mismanagement in the SBA or its programs from
Inspectors General on Integrity and Efficiency Re-            employees, contractors, and the public. The Hotline
search Misconduct Working Group in providing com-               also coordinates reviews with internal audit and
ments on SBA’s proposed revision of its Small Busi-            investigative units and with SBA program offices.
ness Innovation Research program policy directive.
The comments resulted in stronger fraud prevention
procedures.                                                   The Hotline received and processed 208 complaints
                                                              in the following manners:
Additionally, the OIG provided extensive comments
on draft SBA regulations intended to reduce fraud                 55% through the OIG’s online link,
and promote integrity in small business procurement               32% by email,
programs and successfully obtained regulatory                     10% in a letter or writing,
changes that will promote prosecution of such fraud.              3% via telephone, and
Finally, the OIG provided comments on numerous                    less than 1% in person.
regulations and directives for SBA’s small business
financial assistance programs to clarify ambiguous            Each complaint is logged into a database and tracked.
requirements and enhance program oversight capa-              Of the Hotline complaints received:
bilities.
                                                                  83 were referred to SBA program offices or
                         ***                                      other entities:
                                                                  30 were referred to the OIG’s Investigations
                                                                  Division;
                                                                  41 were resolved by the Hotline staff;
                                                                  12 were referred to the OIG Counsel or
                                                                  Auditing Division; and
                                                                  42 needed no action.




                                                         16
This page intentionally blank.




           17
Statistical Highlights: April 1– Sept. 30, 2012


                                  Summary of Office-Wide Dollar Accomplishments


As a Result of Investigations & Related Activities
–Potential Investigative Recoveries & Fines                                                          $9,988,195
–Asset Forfeitures Attributed to OIG Investigations                                                 $13,874,532

–Loans/Contracts Not Approved or Canceled as a Result of Investigations                                     $0

–Loans Not Made as a Result of Name Checks                                                          $27,383,427
Investigations Sub-Total                                                                            $51,246,154
As a Result of Audit Activities
–Disallowed Costs Agreed to by Management                                                            $1,037,969
–Recommendations that Funds Be Put to Better Use Agreed to by Management                             $4,020,000
Audit Sub-Total                                                                                      $5,057,969

TOTAL                                                                                               $56,304,123



        Efficiency and Effectiveness Activities Related to Audit, Other Reports, and Follow-Up Activities


Reports Issued                                                                                              10
Recommendations Issued                                                                                      31
Dollar Value of Costs Questioned                                                                   $171,100,000
Dollar Value of Recommendations that Funds be Put to Better Use                                    $ 43,000,000
Recommendations for which Management Decisions Were Made                                                    45
Recommendations Without a Management Decision                                                               41
Collections as a Result of Questioned Costs                                                           $ 81,109




                                                       18
Statistical Highlights: April 1– Sept. 30, 2012


                                          Indictments, Convictions, and Case Actions



Indictments from OIG Cases                                                                   33
Convictions from OIG Cases**                                                                 27

Cases Opened                                                                                 31
Cases Closed                                                                                 55



                                 SBA Personnel Actions Taken as a Result of Investigations


Dismissals                                                                                   0
Resignations/Retirements                                                                     1
Suspensions                                                                                  0
Reprimands                                                                                   0
Other                                                                                        0



                                   Legal Reviews and Debarment and Suspension Actions

Legislation, Regulations, Standard Operating Procedures, and Other Issuances Reviewed        49
Suspensions and/or Debarments Recommended to the Agency*                                     26
—Pending at the Agency                                                                       30
Suspensions Issued by the Agency                                                             6
Proposed Debarments Issued by the Agency                                                     13
Final Debarments Issued by the Agency                                                        10
Proposed Debarments Declined by the Agency                                                   0
Actions by Other Agencies Resulting from Investigations in which the OIG Participated**      11

* The SBA has initiated administrative proceedings in 14 of the 30 pending cases.
**May include actions from earlier reporting periods not previously reported.




                                                                     19
Statistical Highlights: FY 2012


                                  Summary of Office-Wide Dollar Accomplishments

As a Result of Investigations & Related Activities
–Potential Investigative Recoveries & Fines                                                         $26,245,428
–Asset Forfeitures Attributed to OIG Investigations                                                 $16,086,069
–Loans/Contracts Not Approved or Canceled as a Result of Investigations                                     $32,844
–Loans Not Made as a Result of Name Checks                                                          $39,424,884
Investigations Sub-Total                                                                            $81,789,225

As a Result of Audit Activities
Disallowed Costs Agreed to by Management                                                             $4,774,425
Recommendations that Funds Be Put to Better Use Agreed to by Management                              $4,020,000
Audit Sub-Total                                                                                      $8,794,425
TOTAL                                                                                               $90,583,650




        Efficiency and Effectiveness Activities Related to Audit, Other Reports, and Follow-Up Activities


Reports Issued                                                                                                  22
Recommendations Issued                                                                                         126

Dollar Value of Costs Questioned                                                                   $172,137,969
Dollar Value of Recommendations that Funds be Put to Better Use                                     $50,700,000
Recommendations for which Management Decisions Were Made                                                       113
Recommendations Without a Management Decision                                                                   95
Collections as a Result of Questioned Costs                                                          $4,309,407




                                                       20
Statistical Highlights: FY 2012


                                  Indictments, Convictions, and Case Actions


Indictments from OIG Cases                                                               59

Convictions from OIG Cases                                                               59

Cases Opened                                                                             65
Cases Closed                                                                             89




                          SBA Personnel Actions Taken as a Result of Investigations

Dismissals                                                                               1
Resignations/Retirements                                                                 2
Suspensions                                                                              2
Reprimands                                                                               0
Other                                                                                    0




                             Legal Reviews and Debarment and Suspension Actions


 Legislation, Regulations, Standard Operating Procedures, and Other Issuances Reviewed   136
 Suspensions and/or Debarments Recommended to the Agency                                 45
 —Pending at the Agency                                                                  70
 Suspensions Issued by the Agency                                                        17
 Proposed Debarments Issued by the Agency                                                21
 Final Debarments Issued by the Agency                                                   14
 Proposed Debarments Declined by the Agency                                              0
 Actions by Other Agencies Resulting from Investigations in which the OIG Participated   35




                                                      21
Appendix I: OIG Reports Issued
April 1-September 30, 2012

                                Small Business Access to Capital—Recovery Act


                                                      Report                    Questioned    Funds for Bet-
                       Title                                     Issue Date
                                                      Number                      Costs          ter Use

A Non-Manufacturer Rule Waiver Allowed an 8(a)
Recovery Act Contract to Bypass Established Small     12-19R      9/4/2012          $0              $0
Business Requirements
Addressing Performance Problems of High-Risk
Lenders Remains a Challenge for the Small Business    12-20R     9/28/2012          $0              $0
Administration
504 Recovery Act Loans Were Originated and
                                                      12-23R     9/27/2012          $0              $0
Closed in Accordance with SBA Policies
Program Subtotal                                           3                        $0              $0



                                       Small Business Access to Capital



                                                      Report                    Questioned   Funds for Better
                       Title                                     Issue Date
                                                      Number                      Costs            Use

A Detailed Repayment Ability Analysis is Needed on
High-Dollar Early-Defaulted Loans to Prevent Future    12-18    8/16/2012          $0         $43,000,000
Improper Payments

Program Subtotal                                           1                       $0         $43,000,000



                                             Agency Management


                                                      Report                    Questioned    Funds for Bet-
                       Title                                     Issue Date
                                                      Number                      Costs          ter Use

Weaknesses Identified During the FY 2011 Federal
                                                      12-15      7/16/2012          $0             $0
Information Security Management Act Review

Program Subtotal                                           1                        $0             $0



                                                      22
                      Small Business Development, Contracting, Education, and Training


                                               Report                         Questioned    Funds for Better
Title                                                           Issue Date
                                               Number                           Costs             Use
The Small Business Administration's Inap-
propriate Use of the Government Purchas-        12-16           8/6/2012          $0              $0
es Card for Construction Purchases
The SBA Needs to Improve Its Management
of the State Trade and Export Promotion         12-21           9/25/2012         $0              $0
Grant Program
The SBA’s Ratification Process Could Lead
                                                12-22           9/28/2012         $0              $0
to Possible Anti-Deficiency Act Violations

Program Subtotal                                   3                              $0              $0



                                               Disaster Loans



                                              Report             Issue       Questioned     Funds for Better
                   Title
                                              Number             Date          Costs              Use
The Small Business Administration Did
Not Maximize Recovery for $171.1 Mil-
                                               12-14        7/2/2012         $171,100,000           0
lion in Delinquent Disaster Loans In Liqui-
dation
The Small Business Administration Risks
Loss of Collateral for Four Disaster Loans     12-17        7/31/2012            $0                $0
Totaling $5.6 Million
Program Subtotal                                  2                          $171,100,000          $0
TOTALS (all programs)                            10                          $171,100,000     $43,000,000




                                                       23
Appendix II: Reports
With Questioned Costs



                                                   Recommen-          Questioned        Unsupported
                                       Reports
                                                   dations*           Costs**           Costs**
        No management decision
 A.                                        3              3             $3,137,969         $2,100,000

        Issued during this reporting       1              2            $171,100,000               $0
 B.
        period
        Universe from which man-
        agement decisions could be
                                           4              5            $174,237,969               $0
        made in this reporting
        period – Subtotals
        Management decision(s)
 C.     made during this reporting         2              2             $1,037,969                $0
        period
        (i) Disallowed costs               2              2             $1,037,969                $0
        (ii) Costs not disallowed          0              0                  0                    0
        No management decision
 D.     made by September 30,              2              3            $173,200,000        $2,100,000
        2012

   * Reports may have more than one recommendation.
 ** Questioned costs are those that are found to be improper.
 *** Unsupported costs may be proper, but lack documentation. Unsupported costs are a subset of
     questioned costs.




                                                   24
Appendix III: Reports
With Recommendations that Funds Be Put to Better Use




                                                                            Recommended Funds
                                            Reports      Recommendations*
                                                                            For Better Use
 A.   No management decision made by            1                2              $7,700,000

 B.   Issued during this reporting period       1                1              $43,000,000
      Universe from which management
      decisions could be made in this           2                3              $50,700,000
      reporting period – Subtotals
      Management decision(s) made dur-
 C.                                             1                2              $7,700,000
      ing this reporting period
      (i) Recommendations agreed to by          1                2              $7,700,000

      (ii)   Recommendations not agreed         0                0                  $0

 D.   No management decision made by            1                1              $43,000,000




                                                    25
Appendix IV: Reports
With Non-Monetary Recommendations




                                                                               Reports       Recommendations
 A.    No management decision made by March 31, 2012*                              11                 48**
 B.    Issued during this reporting period                                          9                 30
       Universe from which management decisions could be made in this
                                                                                   20                 78
       reporting period – Subtotals
       Management decision(s) made (for at least one recommendation in
 C.                                                                                13                 40
       the report) during this reporting period
 D.    No management decision made by September 30, 2012*                          12                 38



 * Adding the number of reports for C. & D. will not result in the subtotal of A. & B. because any single report
    may have recommendations that fall under both C. & D.
** Information is different from what was previously reported due to database corrections.




                                                        26
Appendix V: Reports
From Prior Periods with Overdue Management Decisions
                                                   Report         Date
                     Title                                                                 Status
                                                   Number        Issued
SBA's Funding of Information Technology
                                                                            The Agency has not responded to
Contracts Awarded to ISIKA Technologies,            11-14        6/2/2011
                                                                            three recommendations in the report.
Inc.
Banco Popular Did Not Adequately Assess
Borrower Repayment Ability When Originat-                                   The Agency has not responded to one
                                                    11-16    7/13/2011
ing Huntington Learning Center Franchise                                    recommendation in the report.
Loans
Release of Collateral by SBA's Disaster Pro-
                                                                            The Agency has not responded to one
cessing and Disbursement Center Raises Con-         11-17    9/26/2011
                                                                            recommendation in the report.
cerns
Small Business Administration’s Rationale for
Excluding Certain Types of Contracts from the                               The Agency has not responded to five
                                                    12-04    12/6/2011
Annual Small Business Procurement Calcula-                                  recommendations in the report.
tions Needs to be Documented
The SBA’s Improper Payment Review and
Reporting for its Contracting Activities did not                            The Agency has not responded to four
                                                    12-07        3/8/2012
Comply with IPERA and IPIA Requirements                                     recommendations in the report.
During FY 2011
FY 2011 Review of SBA’s Improper Payments           12-10    3/15/2012      The Agency has not responded to one
High-Dollar Early-Defaulted Loans Require an
Increased Degree of Scrutiny and Improved                                   The Agency has not responded to one
                                                   12-11R    3/23/2012
Quality Control at the National Guaranty Pur-                               recommendation in the report.
chase Center
The SBA’s Office of International Trade Inap-
propriately Awarded a One Million Dollar                                    The Agency has not responded to two
                                                    12-12    3/30/2012
State Trade and Export Promotion (STEP)                                     recommendations in the report
Program Grand to an Ineligible Recipient


*“Overdue” is defined as more than 180 days from the date of issuance.




                                                            27
Appendix VI: Reports
Without Final Action as of September 30, 2012
                                                                                 Date of
 Report                                                               Date                  Final Action
                                       Title                                   Management
 Number                                                              Issued                 Target Date
                                                                                Decision
     0-14       7(a) Service Fee Collections                        3/30/00      8/22/00     6/30/11
                SBA’s Oversight of the Fiscal Transfer Agent for
     3-08                                                           1/30/03     10/15/03     4/30/12
                the 7(a) Loan Program
     3-26       Microloan Program                                   5/12/03      8/28/03     5/21/12
                Audit of SBA's Process for Complying with the
     4-34       Federal Managers' Financial Integrity Act Report-   7/29/04      9/9/04      4/30/11
                ing Requirements
                FY 2005 Financial Statements - Management Let-
     6-10                                                           1/18/06      3/7/06      9/30/12
                ter
                Audit of SBA's Implementation of the Improper
     6-25                                                           6/21/06      7/19/06     6/30/12
                Payments Information Act
                Audit of SBA's Fiscal Year 2006 Financial State-
     7-03                                                           11/15/06    12/20/06     6/30/11
                ments
     8-12       Oversight of SBA Supervised Lenders                  5/9/08      6/20/08     12/31/12
                Planning for the Loan Management and Account-
     8-13       ing System Modernization and Development Ef-        5/14/08      8/27/08     12/11/11
                fort
                Audit of SBA’s Fiscal Year 2008 Financial State-
     9-03                                                           11/14/08     9/30/09     12/15/10
                ments
                Audit of SBA’s Fiscal Year 2008 Financial State-
     9-05                                                           12/17/08     2/18/09     12/31/12
                ments – Management Letter
                Review of SBA National Guaranty Purchase Center
     9-12                                                           3/31/09      3/31/09     10/15/09
                Furniture Contract
                Participation in the 8(A) Program by Firms Owned
     9-15                                                            8/4/09        *            **
                by Alaska Native Corporations
                Review of Allegations Concerning How the Loan
     9-17       Management and Accounting System Moderniza-         7/30/09      8/28/09     9/30/09
                tion Project is Being Managed
                Monitoring of Insurance Coverage for Disaster
     10-01                                                          10/20/09     11/6/09     3/31/13
                Loan Recipients


     10-04      Audit of SBA's FY 2009 Financial Statements         11/13/09    12/11/09      6/1/10

                Review of Controls Over Job Creation and Reten-
     ROM
                tion Statistics Reports by SBA Under the American   12/4/09      2/2/10      8/31/11
     10-04
                Recovery and Reinvestment Act of 2009

*            Management decision dates vary with different recommendations.
**           Target dates vary with different recommendations.


                                                          28
                                                                                               Final
                                                                                  Date of
 Report                                                               Date                    Action
                                     Title                                      Management
 Number                                                              Issued                   Target
                                                                                 Decision
                                                                                               Date
              Audit of SBA's FY 2009 Financial Statements -
     10-06                                                          12/15/09      1/20/10      **
              Management Letter
              Premier Certified Lenders in the Section 504 Loan
     10-10                                                           3/23/10      4/11/12    4/10/13
              Program
              Accuracy of Recovery Act Contract Award Obliga-
     ROM
              tions Reported to the Federal Procurement Data-        4/15/10      5/3/10     1/31/12
     10-14
              base System - Next Generation and Recovery.Gov
     ROM      SBA's Planning and Award of the Customer Rela-
                                                                     6/29/10      3/28/11      **
     10-16    tionship Management Contracts
              Adequacy of Quality Assurance Oversight of the
     10-14                                                           9/13/10        *        6/13/11
              Loan Management and Accounting System Project
     ROM      Material Deficiencies Identified in Early-Defaulted
                                                                     9/24/10        *          **
     10-19    and Early-Problem Recovery Act Loans

     11-03    Audit of SBA's FY 2010 Financial Statements           11/12/10        *          **
              Audit of SBA's FY 2010 Financial Statements -
     11-05                                                          12/15/10        *          **
              Management Letter
     ROM      Improper Allotment of Recovery Act Apportion-
                                                                    12/15/10      2/9/11     2/28/11
     11-01    ments
              Weaknesses Identified During the FY 2010 FISMA
     11-06                                                           1/28/11      3/28/11      **
              Review
              Processing of Insurance Recovery Checks at the
     11-07                                                           2/10/11      4/7/11     12/31/12
              Disaster Loan Servicing Centers
              SBA’s Procurement of Information Technology
     11-08    Hardware and Software Through Isika Technolo-          2/25/11      3/30/11    1/31/12
              gies, Inc.
     ROM      Quality of SBA's Recovery Act Data on Public Web-
                                                                    3/22/2011     10/6/11      **
     11-04    sites
              Management Advisory Report on Records Man-
     11-10    agement and Documentation Process at the Disas-        3/29/11      6/20/11    12/31/12
              ter Loan Servicing Centers
     11-11    Effectiveness of SBA's Surveillance Review Process     3/31/11        *        12/31/11
              SBA's Funding of Information Technology Con-
     11-14                                                           6/2/11       8/1/11     12/31/11
              tracts Awarded to ISIKA Technologies, Inc.

*        Management decision dates vary with different recommendations.
**       Target dates vary with different recommendations.



                                                        29
                                                                                        Final
                                                                           Date of
Report                                                          Date                   Action
                               Title                                     Management
Number                                                         Issued                  Target
                                                                          Decision
                                                                                        Date
         Material Deficiencies Identified in Four 7(A) Re-
ROM
         covery Act Loans Resulted in $3.2 Million of Ques-   6/29/11      7/19/11    7/12/12
11-05
         tioned Costs
         Banco Popular did not adequately assess Borrower
11-16    Repayment Ability when Originating Huntington        7/13/11      9/30/11    10/31/12
         Learning Center Franchise Loans
         Independent Auditors' Report on the SBA's FY
12-02                                                         11/14/11    12/22/11      **
         2011 Financial Statements
         KPMG Management Letter Communicating Mat-
12-05    ters Relative to SBA's FY 2011 Financial State-      12/15/11       *          **
         ments
         SBA’s Lender Loan Reporting Process has Systemic
12-08                                                         2/23/12        *          **
         Reporting Issues and Data Control Weaknesses
12-10    FY 2011 Review of SBA’s Improper Payments            3/15/12        *          **
         High-Dollar Early-Defaulted Loans Require an In-
12-11R   creased Degree of Scrutiny and Improved Quality      3/23/12      5/3/12     6/15/12
         Control at the National Guaranty Purchase Center
12-13    Review of the SBA’s Cash Gifts                       3/30/12      6/19/12    9/30/12
         The Small Business Administration did not Maxim-
12-14    ize Recovery for $171.1 Million in Delinquent Dis-    7/2/12        *        6/30/13
         aster Loans In Liquidation
         Weaknesses Identified During the FY 2011 Federal
12-15                                                         7/16/12      8/16/12      **
         Information Security Management Act Review
         The Small Business Administration Risks Loss of
12-17    Collateral for Four Disaster Loans Totaling $5.6     7/31/12      9/11/12    11/30/12
         Million




                                                 30
Appendix VII: Significant Recommendations
From Prior Reporting Periods Without Final Action as of September 30, 2012


                                                                               Date of
  Report       Date                                                                       Final Action
                                       Recommendation                        Management
  Number      Issued                                                                      Target Date
                                                                              Decision
                        Establish internal controls that ensure that OBO
                        and OPGM are unable to modify contracts with-
   9-12       3/31/09                                                          3/31/09     10/15/09
                        out the appropriate supporting documentation,
                        including a statement of work.
                        Conduct a program review to evaluate whether
                        the growth in ANC 8(a) obligations has adverse-
                        ly impacted, or will adversely impact, other 8(a)
   9-15       7/10/09                                                          8/4/09      9/30/12
                        firms and the overall effectiveness of the 8(a)
                        program and, if so, make programmatic revi-
                        sions to minimize the adverse impact.
                        As part of the recommended program review,
                        determine whether 8(a) firms owned by ANCs
                        and tribes should continue to be exempt from
   9-15       7/10/09                                                          8/2/09      6/30/11
                        the cap on total sole source awards in CFR
                        124.519 and, if not, remove the exemption
                        from this regulation.
                        Take steps to modify the contract to require the
                        QA/IV & V contractor to report all findings and
   9-17       7/30/09   recommendations to the Program Manager and             8/28/09     9/30/09
                        an independent QA Manager designated by the
                        CIO.
                        Establish a process for reviewing and accepting
   9-17       7/30/09   LMAS deliverables that complies with SDM re-           8/28/09     9/30/09
                        quirements.
                        Develop and execute a plan for achieving com-
                        pliance on existing and future loans. Alterna-
                        tively, if achieving compliance is determined to
   10-01     10/20/09                                                          11/6/09     3/31/13
                        be not cost effective, seek additional funding or
                        a legislative change to the statutory flood insur-
                        ance requirement.
                        Implement a process to monitor the audit logs
   10-04     11/13/09                                                         12/11/09      6/1/10
                        of all financial applications on a regular basis.
                        Implement a data quality review and testing
   ROM
              12/4/09   process to determine if job data is properly           2/2/10      8/31/11
   10-04
                        recorded, classified, and reported.
                        Reconcile Recovery Act contract awards report-
                        ed to FPDS-NG and Recovery.Gov and report to
   ROM                  Recovery.Gov all non-competitive contract
              4/15/10                                                          5/3/10      1/31/12
   10-14                awards previously not reported to Recov-
                        ery.Gov including the eight contract actions
                        identified by the Office of Inspector General.


                                                   31
                                                                            Date of
Report     Date                                                                        Final Action
                                    Recommendation                        Management
Number    Issued                                                                       Target Date
                                                                           Decision
                    Exclude the CRM contract awarded to Copper
ROM                 River from SBA calculations used to determine
         6/29/10                                                            3/28/11     9/30/11
10-16               the number of 8(a) program contracts and
                    small business contracts for fiscal year 2009.
                    Work with the OCIO to establish measurable
                    outcomes for the CRM initiative and identify
ROM                 the likelihood that a contractor could meet
         6/29/10                                                            3/28/11     5/15/11
10-16               measurable outcomes in contract evaluation
                    criteria for any future contracts under this initi-
                    ative.
                    Revise the LMAS QA plan to incorporate all the
10-14    9/13/10    components required by the enterprise-wide             10/21/10     6/13/10
                    QA plan.
                    Take steps to hold TestPros accountable for
10-14    9/13/10    performing the activities specified in its con-        10/19/10     6/13/10
                    tract.
                    Require the lenders to bring the 25 purchased
ROM                 loans with material deficiencies into compli-
         9/24/10                                                            4/1/11      1/31/13
10-19               ance and recover the $375,259 in guaranties
                    paid.
                    Flag the other loans that have not yet been
ROM                 purchased to ensure the loan deficiencies are
         9/24/10                                                            6/29/11     3/31/13
10-19               properly addressed at the time of the purchase
                    review.
                    Coordinate with SBA program offices to: im-
                    prove the vulnerability tracking and monitoring
                    process to fully address high and medium risk
                    vulnerabilities for key financial systems; ensure
                    that the vulnerability reports are reviewed and
                    analyzed on a regular basis; periodically moni-
11-03    11/12/10                                                           12/8/10     4/20/11
                    tor the existence of necessary services and pro-
                    tocols running on servers and network devices;
                    and develop a more thorough approach to
                    track and mitigate patch management and con-
                    figuration management vulnerabilities identi-
                    fied during monthly scans.




                                                 32
                                                                          Date of
Report     Date                                                                      Final Action
                                   Recommendation                       Management
Number    Issued                                                                     Target Date
                                                                         Decision
                    Develop a comprehensive security education
                    and training program for all IT security person-
11-03    11/12/10                                                         2/7/11       6/1/11
                    nel and a method for monitoring the training
                    program.
                    Enforce an organization-wide configuration
                    management process, to include policies and
11-03    11/12/10   procedures for maintaining documentation that         2/7/11      4/30/11
                    supports testing and approvals of software
                    changes.
                    Coordinate with SBA program offices to prevent
                    users from anonymously connecting unauthor-
11-03    11/12/10   ized devices by developing and implementing           2/10/11     4/15/11
                    procedures to ensure mandatory domain au-
                    thentication for IP address issuance.
                    Implement procedures and conduct audits of
11-03    11/12/10   financial system software changes to ensure all       12/8/10     1/31/11
                    changes are sufficiently approved and tested.
                    Work with the Chief Information Officer to per-
                    form an analysis of loans charged-off in prior
11-05    12/15/10                                                         2/9/11      11/30/11
                    years to identify and correct any DCIA non-
                    compliance issues noted.
                    Work with the HubZone Program Office Direc-
                    tor to develop and implement controls to more
                    effectively monitor the execution of its policies
                    and procedures, particularly related to the au-
11-05    12/15/10                                                         3/31/11     12/31/11
                    thorization of payroll transactions and the per-
                    formance of leave audits, to ensure that they
                    are being followed (e.g., develop policies that
                    require quarterly audits of leave discrepancies).
                    Revise the current methodology to maintain
                    and periodically update SBA‘s organizational
11-05    12/15/10   structure, functional statements, and charts.         3/31/11     9/30/11
                    Further, the revised methodology should be
                    documented in the SOP.
                    Reinforce, through management training, the
11-05    12/15/10   importance of properly and fully completing           3/31/11     9/30/11
                    the Separation Checklist.
                    Work with the Chief Information Officer to con-
                    duct an in-depth analysis of the existing Treas-
                    ury referral protocol to identify and correct the
11-05    12/15/10                                                         2/10/11     11/30/11
                    program coding that is preventing the 139
                    charged-off loans from being automatically
                    referred.
                                               33
                                                                       Date of Man-
Report   Date Is-                                                                     Final Action
                                  Recommendation                      agement Deci-
Number    sued                                                                        Target Date
                                                                           sion
                    Ensure the newly implemented Funds Control
ROM                 System has adequate system controls in place
         12/15/10                                                        2/9/11        2/28/11
11-01               to prevent allotments from exceeding appor-
                    tioned amounts.
                    Update the list of Major Systems to include all
                    the interfaces between each system and all
                    other systems and networks, including those
11-06    1/28/11    not operated by, or under the control of the        3/28/11        9/30/11
                    agency and obtain written Interconnection Se-
                    curity Agreements for every SBA system that
                    has an interconnection to another system.
                    Enforce SOP 90-47 2 requirements for contrac-
                    tor background investigations and perform pe-
11-06    1/28/11    riodic reviews to ensure that SBA contractors       3/28/11        5/30/11
                    have completed the clearance process prior to
                    accessing sensitive information.
                    Establish a program at SBA to manage, control
                    and monitor system interconnections through-
                    out their lifecycle. The program should encom-
11-06    1/28/11                                                        3/28/11        9/30/11
                    pass planning, establishing, maintaining, and
                    terminating system interconnections, including
                    enforcement of security requirements.
                    Develop configuration management policies
                    and procedures that address purpose, scope,
11-06    1/28/11    roles, responsibilities, management commit-         3/28/11        9/30/11
                    ment, coordination among organizational enti-
                    ties, and compliance.
                    Develop and maintain a centralized inventory
11-06    1/28/11                                                        3/28/11        9/30/11
                    of all agency hardware and software.
                    Revise the SBA Certification and Accreditation
                    Program Description procedural document to
11-06    1/28/11    reflect the risk management framework ap-           3/28/11        6/30/11
                    proach established in NIST SP 800-37, Rev.1,
                    and the current POA&M process.
                    Modify the POA&M reporting tool to comply
11-06    1/28/11    with the requirements set forth in OMB Memo-        3/28/11        4/30/11
                    randum 04-25.
                    Develop and test system disaster recovery
                    plans for all of SBA’s major systems at least
11-06    1/28/11                                                        3/28/11        7/30/11
                    annually and initiate any necessary corrective
                    actions based on test results.


                                               34
                                                                         Date of
Report    Date                                                                      Final Action
                                  Recommendation                       Management
Number   Issued                                                                     Target Date
                                                                        Decision
                   Exclude contracts SBAHQ-09-D-0009, SBAHQ-10
                   -D-0001, and Blanket Purchase Agreement
                   (BPA) SBAHQ-10-A-0001 and all associated de-
11-08    2/25/11   livery orders and BPA calls from SBA calcula-         3/30/11     1/31/12
                   tions used to determine the number of 8(a)
                   program contracts and small business contracts
                   for fiscal years 2009 and 2010.
                   Conduct a comprehensive review of data sub-
                   mitted to the Federal Procurement Data Sys-
                   tem – Next Generation (FPDS-NG) for SBA con-
11-08    2/25/11                                                         3/30/11     1/31/12
                   tracts awarded to iTechnologies, reconcile all
                   discrepancies identified, and correct any inac-
                   curately reported data.
                   Research the $21,627,140 in this report to de-
                   termine whether the award has been made or
ROM
         3/22/11   the funds should be deobligated. This research        10/6/11     6/30/12
11-04
                   should result in these actions being posted to
                   FPDS.gov.
                   Deploy an independent statistical verification
ROM
         3/22/11   and validation of all SBA transactions awarded        10/6/11     6/30/12
11-04
                   and subsequently reported to FPDS.gov.
                   Research the $695,157 in this report to deter-
                   mine the disposition of these awards and
ROM                whether Recovery Act funds were actually used
         3/22/11                                                         10/6/11     1/31/12
11-04              to fund the awards. If not, these awards need
                   to be corrected in PRISM, FPDS.gov, and the
                   contract files.
                   Develop and implement a data quality plan that
ROM                documents processes to ensure timely, accu-
         3/22/11                                                         10/6/11     6/30/12
11-04              rate, and complete submission of contracts
                   data to USASpending.gov.
                   Implement continuous monitoring procedures
                   to ensure that contractor-reported information
ROM
         3/22/11   is correct and accurate, and that all prime con-      10/6/11     12/31/11
11-04
                   tractors are accurately reporting the use of sub-
                   contractors.




                                              35
                                                                           Date of
Report    Date                                                                        Final Action
                                  Recommendation                         Management
Number   Issued                                                                       Target Date
                                                                          Decision
                   Develop record designation and retention re-
                   quirements for all loan servicing documents
                   and coordinate with the Office of Management
                   & Administration to incorporate this guidance
11-10    3/29/11                                                           6/20/11     12/31/12
                   into SOP 50 52. The requirements should speci-
                   fy which documents should be designated as
                   records, and therefore retained, and for how
                   long.
                   Revise SOP 50 52 to include a requirement to
                   preserve the analyses performed to conduct all
                   servicing actions. A summary of the analysis
                   should be present on the Form 327 and the
11-10    3/29/11   detail of the analysis should accompany the             6/20/11     12/31/12
                   SBA Form 327 action. The analysis should in-
                   clude sufficient detail to permit an outside par-
                   ty, not connected with the transaction, to verify
                   the accuracy of the decision.
                   Take the appropriate steps to amend SBA’s
                   selection criteria to include errors identified in
                   GC’s anomaly reports, data on 8(a) contracting
11-11    3/31/11                                                           7/7/11      12/31/11
                   activity, and inquiries to SBA’s 8(a) Business
                   Development staff on suspected problems on 8
                   (a) contract execution.
                   Take the appropriate steps to amend SBA’s
                   selection criteria to eliminate those criteria that
11-11    3/31/11   do not indicate risk with the contracting activi-       7/12/11     12/31/11
                   ty, i.e. availability to staff within commuting
                   distance.
                   Take the appropriate steps to develop and im-
                   plement a strategy that ensures contracting
11-11    3/31/11   activities that meet SBA’s selection criteria are       7/7/11      12/31/11
                   identified, prioritized on a nation-wide basis,
                   and targeted for a surveillance review.
                   Take the appropriate steps to determine (a) the
                   level of effort needed to establish an effective
11-11    3/31/11   monitoring process for small business procure-          7/7/11      12/31/11
                   ment activities and (b) the amount of resources
                   needed to implement such a process.




                                               36
                                                                          Date of
Report     Date                                                                      Final Action
                                   Recommendation                       Management
Number    Issued                                                                     Target Date
                                                                         Decision
                    Take the appropriate steps to request re-
                    sources from the Agency or through the annual
                    budget process as appropriate (Based on the
11-11    3/31/11    results from Recommendation #3).                      7/7/11      12/31/11



                    Revise Chapter 4, How Do I Perform a Surveil-
                    lance Review? and corresponding appendices,
                    and update SOP 60 02 7, Prime Contracts Pro-
11-11    3/31/11    gram, to modify definitions of rating categories      7/7/11      12/31/11
                    to minimize subjectivity within each rating cate-
                    gory, including examples of major and minor
                    deficiencies.
                    We recommend the CIO coordinate with SBA
                    program offices to enhance security vulnerabil-
                    ity management processes. Specifically, SBA
                    should: (a) redistribute procedures and train
                    employees on the process for reviewing and
                    mitigating security vulnerabilities, (b) periodi-
                    cally monitor the existence of unnecessary ser-
                    vices and protocols running on their servers
                    and network devices, (c) perform vulnerability
                    assessments with administrative credentials
12-02    11/14/11                                                        12/22/11     3/31/12
                    and penetration tests on all SBA offices from a
                    centrally managed location with a standardized
                    reporting mechanism that allows for trending,
                    on a regularly scheduled basis in accordance
                    with NIST guidance, (d) develop a more thor-
                    ough approach to track and mitigate configura-
                    tion management vulnerabilities identified dur-
                    ing monthly scans, and (e) monitor security
                    vulnerability reports for necessary or required
                    configuration changes to their environment.




                                                37
                                                                           Date of
Report     Date                                                                       Final Action
                                   Recommendation                        Management
Number    Issued                                                                      Target Date
                                                                          Decision
                    We recommend the CIO coordinate with SBA
                    program offices to prevent users from anony-
                    mously connecting unauthorized devices by
12-02    11/14/11                                                         12/22/11     9/28/12
                    developing and implementing procedures to
                    ensure mandatory domain authentication for
                    Internet Protocol (IP) address issuance.
                    We recommend the CIO coordinate with SBA
                    program offices to ensure users’ access rights
12-02    11/14/11                                                         12/22/11     3/30/12
                    are authorized prior to gaining access to finan-
                    cial systems.
                    We recommend the CIO coordinate with SBA
                    program offices to fully implement the SBA
12-02    11/14/11   entity wide incident management and response          12/22/11     2/29/12
                    program and ensure that procedures are en-
                    forced.
                    We recommend the CIO coordinate with SBA
                    program offices to ensure that information sys-
12-02    11/14/11                                                         12/22/11     9/29/12
                    tems hosted by third parties comply with SBA
                    policy and NIST guidance.
                    We recommend the CIO coordinate with SBA
                    program offices to oversee the review and vali-
12-02    11/14/11                                                         12/22/11     4/30/12
                    dation of financial system accounts on a quar-
                    terly basis.
                    We recommend the CIO coordinate with SBA
                    program offices to implement a process to
12-02    11/14/11                                                         12/22/11     3/30/12
                    monitor the audit logs of all financial applica-
                    tions on a regular basis.
                    We recommend the CIO coordinate with the
                    CFO to restrict access to software program li-
                    braries based on the principle of least privilege,
12-02    11/14/11                                                         12/22/11     6/30/12
                    and implement compensating controls over
                    actions where limited resources cause individu-
                    als to perform conflicting job functions.
                    We recommend the CIO coordinate with the
                    CFO to ensure that DBA and system administra-
12-02    11/14/11   tor access is restricted through role-based seg-      12/22/11     6/30/12
                    regation of duties and managed through an
                    effective audit log review process.




                                                38
                                                                         Date of
Report     Date                                                                     Final Action
                                  Recommendation                       Management
Number    Issued                                                                    Target Date
                                                                        Decision

                    We recommend the CIO develop a comprehen-
                    sive security education and training program
12-02    11/14/11                                                       12/22/11     3/30/12
                    for all IT security personnel and a method for
                    monitoring the training program
                    We recommend the CIO enforce an organiza-
                    tion-wide configuration management process,
12-02    11/14/11   to include policies and procedures for maintain-    12/22/11     9/29/12
                    ing documentation that supports testing and
                    approvals of software changes
                    We recommend the CIO implement configura-
                    tion management policies and procedures for
12-02    11/14/11   document retention (to include supporting evi-      12/22/11     9/28/12
                    dence) to validate the authorization of operat-
                    ing system changes.

                    We recommend the CIO enforce existing SBA
12-02    11/14/11                                                       12/22/11     4/30/12
                    policies to rotate backups off-site.


                    We recommend the CIO coordinate with the
12-02    11/14/11   CFO to create, implement, and test system spe-      12/22/11     7/30/12
                    cific and the HQ COOP.

                    We recommend that the Associate Administra-
                    tor, Government Contracting and Business De-
                    velopment revise the Goaling Guidelines for the                 Target date
12-04    12/16/11   Small Business Preference Programs to include       Overdue      not estab-
                    contracts awarded and/or performed overseas                       lished.
                    in the small business goaling baseline beginning
                    with fiscal year 2011.




                                               39
                                                                          Date of
Report    Date                                                                       Final Action
                                  Recommendation                        Management
Number   Issued                                                                      Target Date
                                                                         Decision

                   Determine the underlying causes of the con-
                   tracting activities improper payments for the
                   FY2011 IPERA review and develop and imple-                        Target date
12-07    3/8/12    ment a robust Corrective Action Plan and a Pay-       Overdue      not estab-
                   ment Recapture Audit Plan for the improper                          lished.
                   payments of its contracting activities for
                   FY2011 or obtain a written waiver from OMB.
                   Provide contract training to the SBA personnel
                   responsible for developing the test plan and                      Target date
12-07    3/8/12    performing the agency’s improper payment              Overdue      not estab-
                   review to ensure the detection of improper                          lished.
                   payments.

                   Develop procedures to annually review the                         Target date
12-07    3/8/12    SBA’s Corrective Action Plan to determine if          Overdue      not estab-
                   actions are sufficient.                                             lished.

                   Submit to the Senate Homeland Security and
                   Government Affairs Committee and the House
                   Committee on Oversight and Governmental
                   Reform within 90 days of this memorandum a
                   plan that includes:
                                                                                     Target date
                   a. Measurable milestones for becoming com-
12-07    3/8/12                                                          Overdue      not estab-
                        pliant with IPERA;
                                                                                       lished.
                   b. Designation of an accountable senior agen-
                        cy official; and
                   c. The establishment of an accountability
                        mechanism, describing the actions the
                        agency will take to become compliant.
                   We recommend that the Associate Administra-
                   tor, Office of Capital Access, research and cor-
                   rect loans that have not been reported within
                   the Electronic Loan Information Processing Sys-
12-08    2/23/12                                                          5/6/12      12/31/12
                   tem (ELIPS) for a significant length of time (i.e.
                   6 months or more) which contribute to subsidy
                   overstatements currently estimated at $5.2
                   million.
                   We recommend that the Associate Administra-
                   tor, Office of Capital Access, utilize the lender
12-08    2/23/12   exception detail reports to identify and address       5/6/12       4/3/13
                   lenders that consistently do not report loans
                   and issue corrective action plans.

                                               40
                                                                         Date of
Report    Date                                                                      Final Action
                                  Recommendation                       Management
Number   Issued                                                                     Target Date
                                                                        Decision
                   We recommend that the Associate Administra-
                   tor, Office of Capital Access, collect the $2.5
12-08    2/23/12   million in secondary market late penalty fees by      5/6/12      10/31/12
                   either billing lenders or offsetting against any
                   guarantee purchase amounts.
                   We recommend that the Associate Administra-
                   tor for Capital Access adjust the risk assessment
12-10    3/15/12   to separately assess the risk of improper 7(a)        5/15/12    4/16/2013
                   guaranty loan approvals and improper 7(a)
                   guaranty default.
                   We recommend that the Associate Administra-
                   tor for Capital Access adjust the testing process
                   for 7(a) loan approvals to ensure all necessary
12-10    3/15/12   documentation is obtained and a determination         5/15/12    4/16/2013
                   is made as to whether the loans were approved
                   in compliance with the relevant program regu-
                   lations and requirements.
                   We recommend that the Associate Administra-
                   tor for Capital Access, upon revising the im-
                   proper payments test procedures and estimat-
12-10    3/15/12   ing an accurate rate of improper payments,            5/15/12     4/16/13
                   develop a corrective action plan for 7(a) loan
                   approvals that correctly addresses root causes
                   and will reduce improper payments.
                   We recommend that the Associate Administra-
                   tor for Capital Access require loan officers to
                   thoroughly evaluate creditworthiness (including
12-10    3/15/12                                                         5/15/12     4/16/13
                   repayment ability) on early default loans during
                   both guaranty purchase and improper payment
                   reviews

                   We recommend that the Associate Administra-
                   tor for Capital Access determine and report an
12-10    3/15/12   accurate statistically valid estimate of improper     9/18/12     1/31/13
                   7(a) default purchases for FY 2012 in the next
                   Agency Financial Report.




                                               41
                                                                         Date of
Report    Date                                                                      Final Action
                                  Recommendation                       Management
Number   Issued                                                                     Target Date
                                                                        Decision
                   We recommend that the Associate Administra-
                   tor for Capital Access, upon completing the
                   revised improper payment rate projection for 7
12-10    3/15/12   (a) purchases, conduct a detailed and objective       9/26/12     4/30/13
                   cost/benefit analysis for payment recapture
                   audits of 7(a) purchases.
                   We recommend that the Associate Administra-
                   tor for Capital Access, upon completing the
                   revised improper payment rate projection for 7
12-10    3/15/12   (a) purchases program, revise the corrective          5/15/12    4/16/2013
                   action plan to identify root causes of improper
                   payments and appropriate actions for reduc-
                   tion.
                   We recommend that the Associate Administra-
12-10    3/15/12   tor for Capital Access assess the risk of approv-     5/15/12    4/16/2013
                   ing ineligible loans within the 504 loan program
                   We recommend that the Associate Administra-
                   tor for Capital Access adjust the testing process
                   for 504 loan approvals to ensure all necessary
12-10    3/15/12   documentation is obtained and reviewed and a          5/15/12    4/16/2013
                   determination is made as to whether the loans
                   were approved in compliance with the relevant
                   SBA program regulations and requirements
                   We recommend that the Associate Administra-
                   tor for Capital Access, upon revising the im-
                   proper payments test procedures and estimat-
12-10    3/15/12   ing an accurate rate of improper payments,            5/15/12    4/16/2013
                   develop a corrective action plan for 504 loan
                   approvals that correctly addresses root causes
                   and will reduce improper payments.
                   We recommend that the Associate Administra-
                   tor for Disaster Assistance develop a corrective
12-10    3/15/12   plan that identifies all root causes and develop      4/17/12     12/31/12
                   a methodology to reduce the errors associated
                   with each root cause.
                   We recommend that the Associate Administra-
                   tor for Disaster Assistance perform detailed
                   analysis of the cost-effectiveness of a payment
                   recapture audit program. Such analysis should
12-10    3/15/12                                                         4/17/12     12/31/12
                   conclude whether the benefits of a recapture
                   program would exceed the costs. If so, a pay-
                   ment recapture audit program should be imple-
                   mented.

                                              42
                                                                        Date of
Report    Date                                                                     Final Action
                                 Recommendation                       Management
Number   Issued                                                                    Target Date
                                                                       Decision
                   We recommend that the Associate Administra-
                   tor for Disaster Assistance perform detailed
                   analysis of the cost-effectiveness of a payment
                   recapture audit program. Such analysis should
12-10    3/15/12                                                        4/17/12     12/31/12
                   conclude whether the benefits of a recapture
                   program would exceed the costs. If so, a pay-
                   ment recapture audit program should be imple-
                   mented.
                   Establish a specialized unit of well-trained,
                   highly experienced loan specialists to perform
                                                                                   Target date
                   purchase reviews with the level of scrutiny nec-
12-11R   3/23/12                                                       Overdue      not estab-
                   essary to identify all material deficiencies on
                                                                                     lished.
                   early-defaulted loans approved for $500,000 or
                   more.
                   We recommend that the Associate Administra-
                   tor for the Office of International Trade take
                   precautions to ensure the Commonwealth of
                                                                                   Target date
                   the Northern Mariana Islands or any other ineli-
12-12    3/30/12                                                       Overdue      not estab-
                   gible applicant is not awarded a STEP grant in
                                                                                     lished.
                   future years, unless Congress modifies the
                   Small Business Jobs Act to make the Common-
                   wealth of the Northern Mariana Islands eligible.




                                              43
Appendix VIII: Significant Recommendations
April 1-September 30, 2012
 Report                                       Date
                      Title                                               Recommendation
 Number                                      Issued
                                                          Take the following actions for disaster loans in
                                                          liquidation status delinquent over 180 days that
                                                          are secured by collateral, but not specifically ex-
                                                          empt from referral to Treasury:

          The Small Business Admin-                       •   Evaluate whether prompt foreclosure is feasi-
          istration did not Maximize                          ble.
  12-14   Recovery for $171.1 Million in   7/2/12         •   Initiate foreclosure proceedings promptly on
          Delinquent Disaster Loans In                        loan collateral for which the NDLRC has de-
          Liquidation                                         termined that foreclosure is feasible.
                                                          •   Charge off loans for which the NDLRC has
                                                              determined that foreclosure on the collateral
                                                              is not feasible and ensure transfer of the
                                                              debts to Treasury FMS for cross servicing.
          The Small Business Admin-
                                                          Immediately charge off all disaster loans in liqui-
          istration did not Maximize
                                                          dation status delinquent over 180 days and not
  12-14   Recovery for $171.1 Million in   7/2/12
                                                          secured by collateral, or specifically exempt from
          Delinquent Disaster Loans In
                                                          referral to Treasury.
          Liquidation
          Weaknesses Identified During
                                                          Develop an overall strategy to timely implement
          the FY 2011 Federal Infor-
  12-15                                    7/16/12        audit recommendations issued by the SBA OIG
          mation Security Management
                                                          relating to FISMA security requirements.
          Act Review
                                                          Direct the NGPC to revise its purchase process for
          A Detailed Repayment Ability
                                                          high-dollar early-defaulted loans approved by
          Analysis is Needed on High-
                                                          lenders to verify compliance with SBA’s repay-
  12-18   Dollar Early-Defaulted Loans     8/16/12
                                                          ment ability requirements, including the perfor-
          to Prevent Future Improper
                                                          mance of a detailed analysis of the lenders’ com-
          Payments
                                                          putation of repayment ability.




                                                     44
Appendix IX: Cosponsored & Other Activities

 Name/Subject                            Name of                                 Event         Date Fully
   of Event                            Cosponsor(s)                             Location       Executed
 2012 Emerging     Fresno DO - Cen Cal Business Finance Group, Central
 Leaders (E200)    Valley Business Incubator, Central California Hispanic
                                                                               Fresno, CA      4/2/2012
                   Chamber of Commerce, Fresno Area Hispanic Cham-
                   ber of Commerce, SCORE Chapter #580
 8th Annual        Louisiana DO - Southern University and A&M College
 “Connection       - Center for Rural and Small Business Development,
 Businesses        Louisiana Procurement Technical Assistance Center
 With                                                                       Baton Rouge, LA    4/3/2012
 Contracts”
 Procurement
 Conference
 2012 Emerging     Cleveland DO - City of Youngstown Office of Econom-
 Leaders (E200)    ic Development, Ohio Small Business Development          Youngstown, OH     4/3/2012
                   Center at Youngstown State University
 Social Media      Los Angeles DO - Professional Development Center -
 Workshop          Glendale Community College, Glendale Chamber of            Glendale, CA     4/4/2012
                   Commerce
 2012 Delaware     Delaware DO - Delaware Community Development
 Small Business    Corporation, DelVal Business finance Corporation,
                                                                              Newark, DE       4/4/2012
 Week Awards       Mid-Atlantic Business Finance Corporation
 Event
 Growing Your      New York DO - U.S. Commercial Service - Long Island                         4/4/2012
 Business          U.S. Export Assistance Center, The Long Island Forum
                                                                             Bethpage, NY
 Through           for Technology
 Exporting
 Small Business    Washington Metro Area DO - National Community
 Awards Event      Reinvestment Coalition                                     Arlington, VA    4/4/2012

 2012 Emerging     Oklahoma DO - Rural Enterprises of Oklahoma, Inc.,
 Leaders (E200)    Northeastern State University -Broken Arrow SBDC,
                                                                            Broken Arrow, OK   4/9/2012
                   Oklahoma SCORE 194, Tulsa Economic Development
                   Corp
 2012 Emerging     Arizona DO - American Indian Chamber of Commerce
 Leaders (E200)    of Arizona, American Indian Chamber Education
                                                                              Phoenix, AZ      4/9/2012
                   Fund PTAC, The National Center for American Indian
                   Enterprise Development
 2012 Small        Buffalo DO - SCORE Buffalo Niagara Chapter 45, Busi-
 Business          ness First, Inc.
 Matchmaker,                                                                   Buffalo, NY     4/13/2012
 Awards Lunch-
 eon, Exposition



                                                      45
Name/Subject                              Name of                               Event       Date Fully
  of Event                              Cosponsor(s)                           Location     Executed
Women's Busi-      Baltimore DO - Women Presidents' Educational Organi-
ness Enterprise    zation, Women Entrepreneurs of Baltimore                   Baltimore,
National Council                                                                            4/13/2012
                                                                                 MD
Training
2012 Emerging      Arizona DO - American Indian Chamber of Commerce of
Leaders (E200)     Arizona, The National Center for American Indian Enter-   Phoenix, AZ    4/19/2012
                   prise Development
2012 Emerging      Montana DO - Helena Chamber of Commerce, Native
Leaders (E200)     American Development Corporation, S & K Technolo-
                   gies, Montana Department of Transportation-
                                                                             Helena, MT     4/19/2012
                   Disadvantaged Business Enterprise, Montana Communi-
                   ty Development Corp., Montana Department of Com-
                   merce-Small Business Development Center
2012 Emerging      New Mexico DO - ACCION New Mexico, Albuquerque
Leaders (E200)     Hispano Chamber of Commerce, Albuquerque SCORE
                   Chapter 67, Albuquerque SBDC at CNM, American Indian
                   Chamber of Commerce of New Mexico, Inc., Aztec
                   Chamber of Commerce, Bloomfield Chamber of Com-
                   merce & Visitors Center, City of Albuquerque Economic
                   Development Department, Farmington Chamber of
                                                                             Albuquerque,
                   Commerce, Farmington, Greater Albuquerque Chamber
                                                                              NM; Farm-     4/19/2012
                   of Commerce, NAWBO - Northern New Mexico Chapter,
                                                                              ington, NM
                   NM Department of Veteran's Services, NM 8(a) Minority
                   Business Assoc./NEDA, New Mexico Manufacturing Ex-
                   tension Partnership, Quality New Mexico, San Juan Col-
                   lege, San Juan Economic Development Service, Shiprock
                   Regional Business Development Office, SBDC - San Juan
                   College, South Valley EDC, South Valley SBDC, Technolo-
                   gy Ventures Corp., The Loan Fund, WESST
Contact 2012 -     Louisiana DO - National Aeronautics and Space Admin-
                                                                             New Orleans,
Transmitting       istration, Louisiana Procurement Technical Assistance                    4/19/2012
                                                                                 LA
Opportunities      Center
SBA Contracting    South Carolina DO - University of South Carolina
Programs: HUB-     Salkehatchie, Southern Carolina Regional Development
Zone and Surety    Alliance                                                  Barnwell, SC   4/19/2012
Bond Guaran-
tees




                                                    46
Name/Subject                                 Name of                                 Event       Date Fully
  of Event                                 Cosponsor(s)                             Location     Executed

Small Business      Maine DO - Maine Women’s Business Center - Coastal
Person of the       Enterprises, Inc., Maine Small Business Development Cen-
                                                                                  Augusta, ME    4/19/2012
Year Awards         ters - University of Southern Maine, SCORE Maine Chap-
Luncheon            ter 0172
Access to Capi-     New York DO - New York City College of Technology -
tal – Show Me       Brooklyn Small Business Development Center, SCORE
The Money           New York Chapter, Business Outreach Center Network -
                                                                                  Brooklyn, NY   4/19/2012
$$$” Confer-        Women’s Business Center, Local Development Corpora-
ence                tion of East New York - Women’s Business Center, Brook-
                    lyn Public Library
Houston Dis-        Houston DO - SCORE Chapter 37
trict Small Busi-
ness Week                                                                         Houston, TX    4/24/2012
Awards Event
2012
Small Business      Los Angeles DO - Los Angeles Area Chamber of Commerce
Week Awards                                                                       Los Angeles,
                                                                                                 4/24/2012
Luncheon                                                                               CA

Business Wom-       Connecticut DO - Waterbury Regional Chamber of Com-
en's Forum          merce                                                         Hartford, CT   4/24/2012

2012 Emerging       Milwaukee DO - City of Milwaukee, SCORE Southeast Wis-
Leaders (E200)      consin Chapter, Wisconsin Women's Business Initiative
                    Corp., Manpower, Inc., Greater Milwaukee Committee,
                    SBDC through the University of Wisconsin-Milwaukee,
                                                                                  Milwaukee,
                    Potawatomi Business Development Corp., American Indi-                        4/26/2012
                                                                                      WI
                    an Chamber of Commerce, Metropolitan Milwaukee Sew-
                    erage District, Wisconsin Economic Development Corp.,
                    Bureau of Minority Business Development, Wisconsin
                    Business Development Finance Corp.
2112 Emerging       South Dakota DO - Black Hills State University Center          Rapid City,
Leaders (E200)                                                                                   4/26/2012
                                                                                      SD
Mississippi Gulf    Mississippi DO - Federal Deposit Insurance Corporation -
Coast/Delta         Alliance for Economic Inclusion, Jackson State University -
Alliance for        Center for Business Development and Economic Research
Economic In-
clusion - Missis-
sippi Small                                                                       Jackson, MS    4/26/2012
Business Con-
ference -
“Moving from
Obstacles to
Opportunities”

                                                       47
 Name/Subject                               Name of                               Event        Date Fully
    of Event                              Cosponsor(s)                           Location      Executed
First Annual       Santa Ana DO - Perris Valley Chamber of Commerce
Faith Based
Business Sum-
mit                                                                              Perris, CA    5/1/2012
"Connecting
Faith & Busi-
ness"
Connecticut        Connecticut DO - Hartford Business Journal, Metro Hart-
Business Expo      ford Alliance                                                Hartford, CT   5/1/2012

Small Business     Rhode Island DO - Office of Mayor Angel Tavares - City of
Workshop Se-       Providence Department of Planning and Development,           Providence,
                                                                                               5/2/2012
ries               Rhode Island Small Business Development Center, Center            RI
                   for Women & Enterprise
Kansas Busi-       Wichita DO - Wichita State University - Center for Innova-
ness Match-        tion and Enterprise Engagement, Wichita State University
maker              - Kansas Small Business Development Center, City of
                   Wichita, Purchasing Office, Wichita Metro Chamber of
                   Commerce, Mid America Minority Supplier Development
                   Council, Heartland Procurement Technical Assistance          Wichita, KS    5/2/2012
                   Center, Sedgwick County through its Purchasing Office,
                   State of Kansas – Kansas Department of Commerce, Kan-
                   sas World Trade Center, Inc., USDA Rural Development,
                   SCORE Wichita Chapter 0143, Wichita Convention and
                   Tourism Bureau, Inc., dba Go Wichita, Rose Hill Bank
Tribal Govern-     Oklahoma DO - Tribal Government Institute
ment Institute
6th Annual
Conference –                                                                    Catoosa, OK    5/2/2012
“Winning Con-
tracting Strate-
gies”
Advanced Ap-       Los Angeles DO - Herron Companies, Los Angeles SBDC          Long Beach,
                                                                                               5/3/2012
praisal Review     Network                                                          CA
2012 Emerging      Colorado DO - Vectra Bank, Westerra Credit Union, Colo-
Leaders (E200)     rado Enterprise Fund, Denver Metro Chamber of Com-
                                                                                Denver, CO     5/4/2012
                   merce, Colorado SBDC, Colorado Black Chamber of Com-
                   merce, City of Aurora Small Business Development Center
Bringing Busi-     HQ/ONAA - Federal Reserve Bank of Minneapolis, Feder-
                                                                                WA, CA, AZ,
ness to Indian     al Reserve Bank of San Francisco                                            5/4/2012
                                                                                OK, NY, ND
Country




                                                      48
Name/Subject                                Name of                                  Event        Date Fully
  of Event                                Cosponsor(s)                              Location      Executed

2012 Emerging      Tennessee DO - Economic Development Growth Engine
Leaders (E200)     Industrial Development Board of the City of Memphis and
                                                                                  Memphis, TN     5/5/2012
                   County of Shelby, Tennessee, Office of the Mayor of the
                   City of Memphis, Office of the Mayor of Shelby County
Women's Busi-      Wyoming DO - First State Bank of Newcastle
                                                                                   Newcastle,
ness                                                                                              5/8/2012
                                                                                      WY
Roundtables
Business           Wyoming DO - First National Bank
Roundtables                                                                       Buffalo, WY     5/8/2012

2012 Emerging      Philadelphia DO - AMEC Earth & Environmental, Inc.,
Leaders (E200)     Asian American Chamber of Commerce of Greater Phila-
                   delphia, The Borough of Norristown, The City of Philadel-      King of Prus-
                                                                                                  5/10/2012
                   phia, Finanta, The Greater Philadelphia Chamber of Com-           sia, PA
                   merce, Women's Business Development Center/Women's
                   Business Enterprise Council of PA-DE-NJ
Industry Word      HQ/OCPL - Tim Berry, Palo Alto Software, Anita Campbell,
Guest Blog         Anita Campbell Associates, Ltd.
                   Marco Cabajo, Creative Business Development LLC, Rieva          SBA.gov
                                                                                                  5/10/2012
                   Lesonsky, Grow Biz Media, Joel Libava, Franchise Selec-        Community
                   tion Specialists, Inc., Barbara Weltman, Big Ideas for Small
                   Business, Inc.
Many Faces         HQ/Office of Field Operations - National Black Justice
One Dream          Coalition                                                      Multiple Cit-
                                                                                                  5/15/2012
Tour                                                                               ies (12)

2012 Small         Connecticut DO - Connecticut Small Business - Key to the
Business Week      Future                                                          Southbury,
                                                                                                  5/16/2012
Celebration                                                                            CT

Seminar on         Santa Ana DO - California Employers Association
Changes in
State and Fed-                                                                    Mission Vejo;
                                                                                                  5/16/2012
eral Rules, Reg-                                                                   Perris, CA
ulations and
Laws
Veterans Busi-     Massachusetts DO - New England Business Associates,
ness Planning      Inc.                                                            Springfield,
                                                                                                  5/16/2012
& Resource                                                                             MA
Seminar




                                                       49
Name/Subject                              Name of                                Event        Date Fully
  of Event                              Cosponsor(s)                            Location      Executed

Veterans Busi-   New York DO - Orange County Chamber of Commerce,
ness Forum       Mid-Hudson
                                                                               Montgom-
“Procurement                                                                                  5/16/2012
                                                                                ery, NY
Opportunities”
Workshop
Small Business   New York DO - Operation Hope
Workshop Se-                                                                  New York, NY    5/16/2012
ries
2012 Emerging    St. Louis DO - The Score Association, Missouri Small Busi-
Leaders (E200)   ness Resource Center and the Grace Hill WBC                  Clayton, MO     5/18/2012

2012 Emerging    North Florida DO - Jacksonville WBC, SCORE, SBDC at the
Leaders (E200)   University of North Florida, Beaver Street Enterprise Cen-   Jacksonville,
                 ter, Fifth Third Bank, First Atlantic Bank, Work Source                      5/18/2012
                                                                                   FL
                 Florida and Advantage Business Magazine
Small Business   Santa Ana DO - University Enterprises Corporation at Cali-
Week Awards      fornia State University San Bernardino on behalf of Inland
                 Empire Small Business Development Center operated by         Riverside, CA   5/23/2012
                 California State University San Bernardino Inland Empire
                 Center for Entrepreneurship
Starting Your    North Dakota DO-Fort Berthold Community College
Own Business                                                                   New Town,
                                                                                              5/30/2012
Workshop                                                                          ND

America East     Baltimore DO -Maryland Commercial Lenders Association,
SBA Lenders      Washington Quality Circle Steering Committee, bancserv,
Conference       Banes Capital Group, Biz2Credit, Business Finance Group,
and Follow-Up    Chesapeake Business Finance Corporation, Coastal Securi-
Training         ties Inc., Eastern Bank, FranNet.com, GCF Valuation,
                 Hamilton Federal Bank, JP Morgan Chase, Lender Consult-
                 ing Services Inc., Lerch, Early & Brewer, M&T Bank, Mid-
                 Atlantic Business Finance Company, Monument Bank,             Baltimore,
                                                                                              6/1/2012
                 Nationwide Valuations, PCFS 2000, Prudent Lenders LLC,           MD
                 Reliant Business Valuation, Sandy Spring Bank, Select Spe-
                 cialty, Starfield & Smith, State of Maryland Department of
                 Business and Economic Development, State of Maryland
                 Department of Housing and Community Development,
                 Strategic Banking Partners, The Bailey Group, Zions Bank,
                 TD Bank, Constant Contact, Coleman Publishing, Eagle
                 Bank, Mid-Atlantic Financial Partners, Capital Growth




                                                    50
Appendix X: Legal Actions Summary
April 1-September 30, 2012

                   Jointly
State   Program                         Alleged Violation(s) Prosecuted                       Legal Action
                    with
                             The owner of a maintenance company falsely ob-               Owner sentenced to
                             tained HUBZone certification for his company. As a           12 months and one
                             result of the owner’s misrepresentations, the compa-         day in prison, 12
                  Army CID   ny was awarded 28 federal contracts valued at over           months supervised
 AL       GC
                    DCIS     $2.5 million, which the company would not have               release, and restitu-
                             been eligible to receive without HUBZone status.             tion of $130,000.

                             An SBA employee made approximately $30,553 of                Employee indicted
                             personal, unauthorized purchases using the govern-           and pled guilty.
                             ment purchase card assigned to an SBA district of-
                             fice. She also filed 59 falsified travel vouchers, result-
 AL       IA       None      ing in her receiving about $21,905 from the SBA that
                             she was not entitled to, and made approximately
                             $3,346 of unauthorized purchases on her govern-
                             ment travel card.

                             An individual obtained an SBA-guaranteed loan of             Individual charged
                             $1,529,000 from the Small Business Loan Source               and pled guilty.
                             (SBLS) to purchase a specialty auto parts business.
 AL       BL       None      The individual falsely represented to the SBLS that
                             the $260,000 equity injection was a gift from her
                             grandmother, when, in fact, it was provided by the
                             seller.
                             The long-time girlfriend of the owner of an 8(a) com-        Girlfriend pled guilty
                             pany submitted false income and employment infor-            to a criminal infor-
                  Army CID   mation to obtain a $40,000 non-SBA loan. The own-            mation.
 AL       GC        IRS CI   er of the 8(a) company provided the documents to
                     DCIS    his girlfriend, and she wired $20,000 of the loan pro-
                             ceeds to pay a debt owed by his company.

                             In order to obtain business loans for a gas station/car      Four individuals in-
                             wash, four individuals allegedly made material false         dicted.
                             statements to a financing company. In addition, two
                             of the four individuals are alleged to have falsely rep-
 CA       BL       None      resented to the SBA, as well as to a bank and the
                             financing company, that neither they nor their busi-
                             nesses were involved in any bankruptcies or pending
                             lawsuits and they did not have a controlling interest
                             in other businesses.




                                                   51
                   Jointly
State   Program                        Alleged Violation(s) Prosecuted                     Legal Action
                    with
                             Government officials received bribes from partici-        Four individuals
                             pants in SBA programs (i.e. 8(a), Alaska Native Cor-      charged. Seven pled
                             poration, Service-Disabled/Veteran Owned, etc.) in        guilty. Former gov-
                             return for the award of contracts. The same gov-          ernment official sen-
                     FBI     ernment officials then certified receipt of goods and     tenced to 6 years in
                    IRS CI   services and authorized payment of fraudulent in-         prison, 3 years su-
 DC       GC                 voices submitted by the contractors. The contrac-         pervised release,
                  Army CID
                     DCIS    tors then provided a portion of the proceeds to the       500 hours of com-
                             government officials, paid kickbacks to other con-        munity service, and
                             tractors, and retained portions for themselves. The       restitution of $1.25
                             bribe and kickback payments exceed $30 million.           million.


                             In order to sell a gas station/convenience store for      The Department of
                             $1.33 million, the seller orchestrated a scheme to        Justice reached a
                             make it appear that the buyer had the full equity         civil settlement
                             injection by providing the buyer a loan of $180,000.      agreement with the
 FL       BL       None
                             The loan was channeled through a third party with a       seller on behalf of
                             false “gift letter” making the loan appear to be a gift   the SBA. Seller
                             from a friend.                                            agreed to pay SBA
                                                                                       $410,000.
                             Two individuals created an undisclosed affiliate of a     Two individuals each
                             larger company in order to bid on government small        sentenced to 36
                             business set-aside contracts. The undisclosed affili-     months in prison, 36
                             ate obtained a $100 million set-aside contract with       months of super-
                             the Department of Defense for language instruc-           vised release, 500
 FL       GC        DCIS
                             tion.                                                     hours of community
                                                                                       service, and forfei-
                                                                                       ture of $10,917,092
                                                                                       in proceeds of the
                                                                                       fraud.




                                                 52
                   Jointly
State   Program                          Alleged Violation(s) Prosecuted                    Legal Action
                    with
                               Two construction companies fraudulently purported        Both companies
                     IRS CI
                               to have SBA HUBZone status based upon false              sentenced to proba-
                    VA OIG
                               claims that their principal places of business were      tion of 36 months.
                   GSA OIG
                               located in HUBZones and that two employees from          One company fined
 ID       GC      USDA OIG
                               each company resided in HUBZones. Contracts ob-          $65,000; the other
                   DOI OIG
                               tained as a result of false claims by the two compa-     one fined $5,000.
                  DCIS AFOSI
                               nies total over $1.6 million.
                   Army CID
                               The owner of a construction company established          Owner pled guilty to
                     IRS CI    “shell” corporations to financially benefit from SBA     superseding infor-
                    VA OIG     set-aside programs and GSA government surplus            mation.
                   GSA OIG     property programs, which he was not otherwise
 ID       GC      USDA OIG     entitled to participate in.
                   DOI OIG
                  DCIS AFOSI
                   Army CID

                               A chiropractor allegedly failed to report an ongoing     Chiropractor indict-
                               criminal investigation and audit involving claims        ed.
                               that his clinic had submitted to Medicare. If the
                   HHS OIG
 IL       BL                   bank had known of the pending inquiry, or the re-
                     FBI
                               sulting reduction in business income and cash-flow,
                               it would have declined the $100,000 SBA Express
                               loan it made to the chiropractor.
                               When applying for SBA-guaranteed loans for his           Individual pled
                               electrical contracting firm, an individual reported he   guilty. Sentenced to
                               had no criminal history and concealed numerous           18 months in pris-
                               arrests and felony convictions. The individual has       on, followed by 3
                               defaulted on the loans with a principal balance to-      years supervised
                               taling $564,341 and has filed for bankruptcy.            release, of which
 IN       BL        None
                                                                                        the first 9 months
                                                                                        will be served as
                                                                                        home detention.
                                                                                        Ordered to pay res-
                                                                                        titution of
                                                                                        $315,076.09.




                                                  53
                   Jointly
State   Program                        Alleged Violation(s) Prosecuted                  Legal Action
                    with
                             The owner of a construction company falsified his       Owner pled guilty.
                             service disability in order to falsely claim Service-
                    DCIS     Disabled Veteran-Owned (SDVO) small business
 KS       GC      GSA OIG    status. Using this status, he obtained 11 federal
                  VA OIG     government contracts, valued at over $6.83 million,
                             which his company would not have been otherwise
                             entitled to receive.
                             An individual used the identity of his former busi-     Individual sen-
                             ness partner, a federal air marshal, to obtain an SBA   tenced to 42
                             Express Loan and multiple credit card accounts. He      months in prison, 5
 KY       BL       USSS
                             also deposited a counterfeit check into a federally-    years supervised
                             insured financial institution.                          release, $91,250.50
                                                                                     in restitution
                             In a transaction involving a $916,000 SBA-              Individual pled
                             guaranteed loan, an individual created a fraudulent     guilty. Individual
                     FBI
                             commission agreement used at loan closing, which        with knowledge of
                    IRS CI
 LA       BL                 circumvented the equity injection requirement.          the crime sentenced
                   LSAGO
                             Another individual was aware of the violations and      to 2 years of proba-
                             failed to report them.                                  tion and 50 hours of
                                                                                     community service.
                             A pastor was approved for an SBA disaster loan to-      Pastor sentenced to
                             taling $969,900 to rebuild his church, which sus-       120 months in pris-
                             tained severe damage as a result of Hurricane Katri-    on, 3 years super-
                             na. The pastor did not use the loan funds in accord-    vised release, and
 LA       DL       None      ance with the Loan Authorization and Agreement.         restitution of
                             Instead, he used proceeds to purchase real estate,      $963,900 to the
                             luxury vehicles, fine jewelry, designer fashions, and   SBA.
                             other items for his personal use.

                             Two individuals set up a company for the sole pur-      Both individuals
                   VA OIG    pose of obtaining set-aside contracts. One of the       indicted and pled
                  Army CID   individuals had service-disabled veteran status;        guilty.
MA        GC
                  DOL OIG    however, his involvement in the company did not
                  GSA OIG    meet SBA requirements for establishing a Service-
                             Disabled, Veteran-Owned business.




                                                54
                  Jointly
State   Program                       Alleged Violation(s) Prosecuted                   Legal Action
                   with
                            A former SBA employee allegedly provided altered        Both individuals in-
                            copies of her own Leave and Earnings Statement          dicted. Non-SBA
                            (LES) to another individual to enable that individual   employee pled
MD        IA      None      to finance an automobile. The altered LES reflected     guilty.
                            that the other individual was an SBA employee even
                            though she never worked at SBA and was not em-
                            ployed at the time.
                            Individuals encouraged prospective borrowers to         One individual sen-
                            apply for SBA 7(a) business loans using the services    tenced to 33 months
                            of their company. The individuals submitted fraud-      in prison, 2 years of
                            ulent SBA loan applications and supporting docu-        supervised release,
                   FBI      mentation on behalf of their clients thereby falsely    restitution of
MD        BL
                  USPIS     enhancing the creditworthiness of the borrowers         $713,000, and or-
                            and their businesses. To date, the conspiracy has       dered to forfeit $1.3
                            resulted in losses of over $52 million to the SBA.      million. Three other
                                                                                    individuals pled
                                                                                    guilty.
                            When applying for a $1.3 million SBA-guaranteed         Owner sentenced to
                            loan, the owner of a medical supply company falsely     24 months in prison
ME        BL      None      indicated on the SBA Form 912 that he had no prior      and 1 year super-
                            criminal convictions.                                   vised release. SBA
                                                                                    loan paid in full.
                            The president of a real estate investment firm par-     President sentenced
                            ticipated in multiple fraud schemes including two       to a 5-year proba-
                            involving SBA loans. The first involved an SBA-         tion term, with the
                            guaranteed loan of $98,000 to a company he falsely      first 12 months
                            purported to be owned by his wife. The second in-       served in county jail.
                  USSS      volved a $100,000 SBA loan for which he overstated      Ordered to pay resti-
 MI       BL                his company’s annual revenue as $890,000 instead        tution of $219,957.
                  MSP
                            of $35,240. In addition, proceeds from both loans
                            were processed, laundered, and diverted into his
                            personal bank accounts instead of being used for
                            working capital for the respective businesses.




                                               55
                  Jointly
State   Program                       Alleged Violation(s) Prosecuted                    Legal Action
                   with
                            A borrower signed several SBA documents in con-          Borrower sentenced
                            nection with a $750,000 SBA-guaranteed loan stat-        to 5 years of proba-
                            ing he was the sole owner of a company, when, in         tion, and restitution
                            fact, he did not have any ownership interest in the      of $1,113,778.51.
                            company. He also signed SBA documents affirming
MO        BL        FBI     that certain portions of the loan proceeds were to
                            be used for equipment and inventory purchases,
                            working capital, and debt repayment, when, in fact,
                            he knew the loan proceeds were intended to be
                            used to pay down an outstanding loan balance of
                            another business.
                            As part of a bank fraud scheme, a former nurse was       Former nurse sen-
                            recruited to obtain a $175,070 SBA Express loan.         tenced to 2 years of
MO        BL        FBI     The nurse received $7,500 for obtaining the loan         probation.
                            and the remaining proceeds went to benefit other
                            individuals and business entities.

                            Two individuals set up a “figurehead” service-           First individual sen-
                            disabled veteran as the purported president and          tenced to 24 months
                            operator of a company. The company misrepre-             in prison, 1 year su-
                            sented itself as a Service-Disabled Veteran-Owned        pervised release,
                            Small Business in order to obtain federal contracts.     and a $50,000 fine.
                            A third individual, a government employee, accept-       Second individual
                            ed illegal gratuities in exchange for steering work to   sentenced to 36
                            the company. The company was awarded a total of          months’ probation,
                            $3.4 million in government set aside and sole            a $60,000 fine, and
                  GSA OIG
MO        CC                source contracts, of which $657,000 were Recovery        restitution of $1.55
                  VA OIG
                            Act funds.                                               million. He was or-
                                                                                     dered to forfeit over
                                                                                     $1.55 million in cash
                                                                                     and a 2011 Jaguar.
                                                                                     The government
                                                                                     employee sentenced
                                                                                     to 15 months in pris-
                                                                                     on and 12 months
                                                                                     supervised release.




                                               56
                   Jointly
State   Program                        Alleged Violation(s) Prosecuted                   Legal Action
                    with
                             A husband and wife obtained a $1 million Hurricane      Husband sentenced
                             Katrina disaster business loan and misused the pro-     to 3 years of proba-
                             ceeds, including almost $390,000 to purchase a 43-      tion, a $250,000
MS        DL        FBI
                             foot yacht.                                             fine, and $1 million
                                                                                     in restitution.

                    USSS     A former loan officer allegedly provided inaccurate     Former loan officer
                  FDIC OIG   and misleading information in order to secure a $2      indicted.
 ND       BL         FBI     million SBA-guaranteed loan for a couple and their
                  DHS ICE    business.
                    TPD
                             An organized group of Korean nationals obtained         One individual sen-
                             credit cards and loans from various lending institu-    tenced to 24
                             tions using false identities, documents, and business   months’ probation
                             names. Loan officers at various banks were also         and ordered to pay
                             involved in the scheme. Thirty-three loans, totaling    off two loans total-
                             approximately $1.8 million, were obtained using         ing over $132,000.
                             false pretenses. Of the 33 loans, 17 were SBA-          Another individual
                             guaranteed, resulting in approximately $800,000 of      charged, pled guilty,
                   IRS CI
                             loss to the SBA.                                        and sentenced to 18
 NJ       BL       ENJPD
                                                                                     months in prison
                   BCPO
                                                                                     and 24 months’ pro-
                                                                                     bation. A third indi-
                                                                                     vidual, the husband
                                                                                     of one of the main
                                                                                     group leaders, sen-
                                                                                     tenced to 36
                                                                                     months’ probation
                                                                                     and a $3,500 fine.
                             The president/CEO of a construction firm falsely        President sentenced
                             claimed Service-Disabled Veteran-Owned (SDVO)           to 41 months in pris-
                             status for his company. Based on these misrepre-        on, 3 years of super-
                   VA OIG    sentations, the company was awarded one Veteran         vised release, and a
 NY       GC
                  Army CID   Owned (VO) set-aside contract in the amount of          30,000 fine.
                             $5,698,000 and three SDVO set-aside contracts to-
                             taling $10,980,690.




                                                57
                  Jointly
State   Program                       Alleged Violation(s) Prosecuted                   Legal Action
                   with
                            Three individuals were involved in an invoice           Two individuals each
                            scheme involving approximately $1 million in SBA        sentenced to 12
                            home and business disaster loans. The business          months home con-
                            loan was approved to repair/replace more than 40        finement, 3 years
                            rental properties purportedly damaged by Hurri-         supervised release,
                            cane Ike. One of the individuals created fictitious     and a $4,000 crimi-
 TX       DL      DHS OIG   repair invoices and checks that the second individu-    nal fine. Borrower
                            al, the borrower, submitted to the SBA. The third       not yet sentenced.
                            individual, the borrower’s brother, verified to the
                            SBA approximately $680,000 in fictitious repairs and
                            payments supposedly made to his construction
                            company.

                            A retired judge allegedly made false statements         Retired judge indict-
                            regarding the location of his primary residence, the    ed.
                            address for his homestead exemption, and the pay-
 TX       DL      DHS OIG   ment of the required equity injection. These state-
                            ments were made in order to obtain a $125,000 SBA
                            loan to reconstruct property damaged by Hurricane
                            Ike.
                            A businessman made multiple material misrepre-          Individual sentenced
                            sentations to lenders and the SBA regarding the         to 5 years of proba-
                            purchase of a Houston motel. The false statements       tion, 6 months home
                            related in part to his submission of fraudulent docu-   confinement, and
                            ments as proof that he paid over $700,000 in equity     restitution of
 TX       BL        FBI     injection in order to obtain an SBA-guaranteed loan     $1,207,459.35.
                            of $1,327,000.




                                               58
                       Jointly
 State   Program                             Alleged Violation(s) Prosecuted                   Legal Action
                        with
                                   The president of a financial institution and a former   President sentenced
                                   mortgage loan officer recruited “straw borrowers”       to 12 months and
                                   and used the borrowers’ names and good credit to        one day in prison
                                   fraudulently obtain four SBA loans and two bank         and 36 months su-
                                   loans totaling $335,000.                                pervised release.
                                                                                           Former loan officer
                                                                                           pled guilty and sen-
                                                                                           tenced to 10 days in
  UT        BL          IRS CI                                                             prison, 6 months
                                                                                           home confinement,
                                                                                           30 months super-
                                                                                           vised release, and
                                                                                           200 hours communi-
                                                                                           ty service. Both or-
                                                                                           dered to pay joint
                                                                                           restitution of
                                                                                           $165,960.49.
                                   An individual is alleged to have participated in a      Individual indicted.
                                   multi-million dollar treasury check scheme involving
                                   bogus treasury checks and tax returns. In addition,
  VA        BL           FBI
                                   the individual allegedly misrepresented his citizen-
                                   ship status in the course of obtaining a $149,000
                                   SBA 504 loan and a $203,000 bank loan.


Program Codes: BL=Business Loans; DL=Disaster Loans; GC=Government Contracting and Section 8(a) Busi-
ness Development; IA=Integrity Assurance

Joint-investigation Agency Acronyms: AFOSI= Air Force Office of Special Investigations; Army/CID=U.S.
Army/Criminal Investigation Command (Division); BCPO=Bergen County Prosecutor’s Office;
CABC=California Alcohol and Beverage Control; DCIS=Defense Criminal Investigative Service; DHS/
ICE=Department of Homeland Security/Immigration and Customs Enforcement; DHS/OIG=Department of
Homeland Security/OIG; DOI/OIG=Department of Interior/OIG; DOL/OIG=Department of Labor/OIG; EN-
JPD=Englewood New Jersey Police Department; FBI=Federal Bureau of Investigation; FDIC/OIG=Federal
Deposit Insurance Corporation/OIG; GSA/OIG=General Services Administration/OIG; HHS/OIG=Health and
Human Services/OIG; IRS/CI=Internal Revenue Service/Criminal Investigation; LSAGO=Louisiana State Attor-
ney General’s Office; MSAO= Mississippi State Auditor’s Office; MSP=Michigan State Police; TPD=Tampa
Police Department; USDA/OIG=U.S. Department of Agriculture/OIG; USPIS=U.S. Postal Inspection Service;
USSS=United States Secret Service; VA/OIG=Department of Veterans Affairs/OIG.




                                                      59
Appendix XI: External Peer Reviews

      Section 5(a) of the IG Act provides the                                         ***
  requirements for reporting the results of peer               Investigations
 reviews in OIG Semiannual Reports to Congress.
     The following information is provided in                  Section 6(e)(7) of the IG Act, Attorney General
      accordance with these requirements.                      Guidelines for Offices of Inspector General with
                                                               Statutory Law Enforcement Authority, and the CI-
                                                               GIE Quality Standards for Investigations require
                                                               external peer reviews of OIG investigative func-
                         ***                                   tions be conducted every 3 years.
Auditing
                                                                                      ***
Generally Accepted Government Auditing Standards
(GAGAS) issued by the Government Accountability                The OIG was not subject to a peer review during
Office (GAO) require that audit organizations per-             this semiannual reporting period. The Department
forming audits and attestation engagements in ac-              of Veteran’s Affairs (VA) OIG conducted the last
cordance with GAGAS must have an external peer                 peer review of the OIG, and issued its final report
review performed by reviewers independent of the               December 21, 2011. The VA OIG found the system
audit organization being reviewed at least once every          of internal safeguards and management proce-
3 years.                                                       dures for the investigative function of the SBA OIG
                                                               Compliant with the quality standards established
The National Aeronautics and Space Administration              by the CIGIE and the applicable Attorney General
Office of Inspector General, conducted a peer review           Guidelines (OIGs can be assessed as either Compli-
of the OIG during this semiannual reporting period.            ant or Noncompliant). No recommendations were
On September 27, 2012, NASA OIG issued its final               offered.
report. The OIG received a rating of “Pass” in that
report (federal audit organizations can receive a rat-                                ***
rating of Pass, Pass with Deficiencies, or Fail). There
are no outstanding recommendations from previous
peer reviews of the OIG.

                         ***

Peer Reviews Conducted

The SBA OIG conducted a peer review of the Railroad
Retirement Board Office of Inspector General during
this reporting period. The fieldwork has been com-
pleted, and the final reporting, which is pending, will
be addressed during the next reporting period.


                         ***




                                                          60
Appendix XII: Organization


                                                       The OIG headquarters is located in Washington, DC, and
 The OIG is comprised of the immediate office of       has field staff located in Atlanta, GA; Chicago, IL; Dallas/
the Inspector General and four divisions: Auditing,    Fort Worth, TX; Detroit, MI; Denver, CO; Herndon, VA;
  Investigations, Counsel, and Management and          Houston, TX; Kansas City, MO; Los Angeles, CA; Miami,
                      Policy.                          FL; New Orleans, LA; New York, NY; Philadelphia, PA; Ta-
                                                       coma, WA; and Washington, DC. An organization chart
                                                       for the OIG is shown on page 62.
                        ***

The Auditing Division performs and oversees
audits and reviews to promote the economical,
efficient, and effective administration of SBA pro-
grams and operations.

The Investigations Division manages a program to
detect and deter illegal and improper activities
involving SBA programs, operations, and person-
nel. The criminal investigations staff carries out a
full range of traditional law enforcement func-
tions. The security operations staff ensures that
SBA employees and contractors have appropriate
background investigations and security clearances
to achieve a high level of integrity in the Agency’s
workforce, and that loan applicants and other
potential program participants are of good char-
acter.

The Counsel Division provides legal and ethics
advice to all OIG components; represents the OIG
in litigation arising out of or affecting OIG opera-
tions; assists with the prosecution of criminal,
civil, and administrative enforcement matters;
processes subpoenas, responds to Freedom of
Information and Privacy Act requests; and reviews
and comments on proposed policies, regulations,
legislation, and procedures.

The Management and Policy Division provides
business support (e.g., budget and financial man-
agement, human resources, IT, and procurement)
for the various OIG functions; coordinates prepa-
ration of the OIG’s Semiannual Report to Con-
gress, Report on the Most Serious Management
and Performance Challenges Facing the SBA, and
other OIG-wide reports and documents; maintains
the OIG website; and operates the OIG’ s Hotline.

                                                       61
Appendix XIII: Organization Chart

                             Inspector
                              General

                                                          Counsel Division
                              Deputy
                             Inspector
                              General




 Auditing Division          Investigations                           Management and
                              Division                                Policy Division




                                              Office of
                                              Security
                Credit
                                             Operations
               Programs
                Group




                Business
              Development                Eastern Region
               Programs
                 Group




               Financial                 Central Region
             Management &
               IT Group




                Disaster                 Western Region
               Assistance
                Group

                               62
                             Make a Difference!
   To promote integrity, economy, and efficiency, we encourage you to report
       instances of fraud, waste, or mismanagement to the OIG Hotline.*


                                              Online:
       http://www.sba.gov/office-of-inspector-general/2662



                                                 Call:
                              1-800-767-0385 (Toll Free)



                                      Write or Visit:
                       U.S. Small Business Administration
                           Office of Inspector General
                             Investigations Division
                        409 Third Street, SW (5th Floor)
                             Washington, DC 20416




*In accordance with Sections 7 and 8L(b)(2)(B) of the Inspector General’s Act, confidentiality of a
 complainant’s personally identifying information is mandatory, absent express consent by the complainant
 authorizing the release of such information.
